<html>
<title> - CHINESE INTERROGATION VS. CONGRESSIONAL OVERSIGHT: THE UIGHURS AT GUANTANAMO</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   CHINESE INTERROGATION VS. CONGRESSIONAL OVERSIGHT: THE UIGHURS AT 
                               GUANTANAMO 

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2009

                               __________

                           Serial No. 111-53

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-104 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
































                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Alan Liotta, Principal Director, Detainee Affairs, Department 
  of Defense.....................................................    15
Bruce Fein, Esq., Principal, The Litchfield Group................    42
Jason Pinney, Esq., Counsel to Uighur Detainees, Bingham 
  McCutchen, LLP.................................................    50
Mr. Tom Parker, Policy Director, Counter-Terrorism and Human 
  Rights, Amnesty International USA..............................    63

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Bill Delahunt, a Representative in Congress from 
  the Commonwealth of Massachusetts, and Chairman, Subcommittee 
  on International Organizations, Human Rights and Oversight:
  Written testimony of former Uighur detainees...................     2
  Article by David Keene, ``The Uighur dilemma,'' The Hill, dated 
    July 13, 2009................................................    76
Mr. Alan Liotta: Prepared statement..............................    19
Bruce Fein, Esq.: Prepared statement.............................    46
Jason Pinney, Esq.: Prepared statement...........................    57
Mr. Tom Parker: Prepared statement...............................    68

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81


                       CHINESE INTERROGATION VS.
                        CONGRESSIONAL OVERSIGHT:
                       THE UIGHURS AT GUANTANAMO

                              ----------                              


                        THURSDAY, JULY 16, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:13 a.m. in 
room 2172, Rayburn House Office Building, Hon. William Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. This hearing will come to order. First let me 
welcome the vice chair of the Subcommittee on Oversight, Mr. 
Carnahan, sitting to my right.
    And we are joined by two colleagues, Congressman Jim Moran 
from Virginia, who serves on the Appropriations Committee and 
has an interest in this particular issue and is a senior member 
of that committee. We are also joined by our colleague from the 
Armed Services Committee who chairs the relevant subcommittee 
of that particular body, Mr. Abercrombie of Hawaii. Welcome to 
both of you gentlemen.
    And of course I am joined by my good friend from 
California, the ranking member of this committee, Mr. 
Rohrabacher. We also want to welcome his new aide, Mr. Manyon, 
who is pinch hitting for Paul Berkowitz, who will return 
sometime in August I understand.
    This is the third hearing that this committee has held on 
the plight of the Uighurs both in China and those 22 Uighurs 
formerly and currently detained at Guantanamo Bay. For those 
who are unfamiliar, the Uighurs are a Muslim minority that live 
in northwestern China. For years they have been persecuted and 
oppressed by the Communist Chinese regime.
    It came to the committee's attention that in September 
2002, Communist Chinese agents were welcomed to Guantanamo Bay 
for a period of between 7 and 10 days for the purpose of 
interrogating the group of 22 Uighurs.
    It is important to note that in anticipation of the arrival 
of the Chinese delegation, the Inspector General of the 
Department of Justice here in Washington reported that American 
forces softened up the Uighurs detainees by routinely waking 
them up at 15 minute intervals the night before.
    It is the committee's intention to provide a venue, whether 
here in Washington or elsewhere, for these men who have fled 
Communist Chinese persecution to come forward and testify so 
that our colleagues and the American people can have an 
opportunity to hear them firsthand without filter and make 
their own judgments. Until that happens, the committee has been 
provided with statements through their counsel from three 
former Uighur detainees who are now currently residing in 
Albania and Bermuda.
    I have reviewed these statements and find them profoundly 
disturbing, and I believe that the American people will share 
those sentiments. I ask unanimous consent to enter their 
testimony into the records of the committee.
    [No response.]
    Mr. Delahunt. Hearing no objection, it is so ordered.
    [The information referred to follows:]Bingham.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Delahunt. The Chinese delegation interrogated each of 
the 22 Uighurs. All 22 told consistent stories of intimidation 
and threats by these Communist agents. They also reported that 
their files, which included their real names and that of their 
families back in China, were turned over to the Chinese by 
American personnel.
    Imagine the fear of these men for their families as the 
Communist Chinese Government routinely targets not only 
dissidents, but also their family members. We have heard before 
from Ms. Kadeer, who was nominated three times for a Nobel 
Peace Prize, who was the target of the Chinese Communist 
Government, who after she left, her two sons were incarcerated 
and still are.
    To meet our oversight responsibilities, the ranking member 
and myself requested permission from the Bush Administration to 
fly to Guantanamo to meet with those very same Uighur men that 
the Chinese had full, unfettered access to. Our request was 
denied, and we never received a satisfactory explanation for 
why our visit was refused.
    The Department of Defense, however, provided a statement to 
Fox News, which I will now read into the record and you can see 
on the Floor to my right. This was the statement as reported by 
Fox News:

          ``We have permitted many countries from which these 
        detainees are from to visit 1] to see that they are 
        being treated humanely and 2] to help us understand who 
        they are and to provide us with insight and information 
        about the detainees. Foreign nationals are permitted to 
        come in. They help us understand who these people are 
        and what they are involved in, and that includes 
        official delegations from their country of 
        origin.<greek-l>'' deg.
          ``But Congressmen, the general public, media are not 
        permitted to question detainees. It can only be done in 
        an official capacity, and no Congressman can 
        interrogate or question detainees because it is not 
        part of their oversight responsibility.''

That was the statement that was secured by Fox News.
    Well, let me first address the issue of oversight 
responsibility. I want to be very clear. There was no 
congressional oversight during the Bush-Cheney Administration. 
It simply didn't exist. As former Senator Chuck Hagel stated, 
the Bush-Cheney Administration treated Congress as a 
constitutional nuisance. Well, that is not going to happen any 
longer.
    I reject any suggestion that the Executive can define what 
constitutes congressional oversight. It is not the prerogative 
of the Executive to determine the role of the first branch of 
government. I am confident that this position is shared by 
most, if not all, of my colleagues in the House.
    Things have changed. This is the new Congress, and we have 
a new President. And I want to acknowledge that the Department 
of Defense representative is present. I could speculate that if 
this was prior to January 20 of this year our invitation to 
testify would have been simply ignored as it was in the past, 
so we are glad you are here, Mr. Liotta.
    This committee intends to vigorously exercise the oversight 
responsibility explicitly tasked to it by the House of 
Representatives not for purposes of confrontation or with 
intention to embarrass, but to ensure that we do not make the 
mistakes or repeat them that have been made in the past on any 
issue and to ensure that a thorough policy review can be made 
available to our colleagues.
    So as I said, I am pleased to welcome Mr. Liotta here today 
so we can explore the policy of the Department of Defense to 
permit governments like Communist China to interrogate 
detainees in United States custody.
    I would point out that this issue is particularly prescient 
in light of the recent events in the Uighur Autonomous Region 
over the course of the past several weeks. The atrocities now 
taking place in China are only further evidence of the 
oppression and persecution of the Uighur people.
    As the 2008 Human Rights Report published by our own State 
Department confirms, the recent events in the Uighur Autonomous 
Region are not new or novel to the Uighur people. Human rights 
violations against the Uighurs have been meticulously 
documented by our own State Department and the Commission on 
International Religious Freedom, yet the Department of Defense, 
led by then Secretary of Defense Donald Rumsfeld, welcomed a 
Communist Chinese delegation to Guantanamo in September 2002 
and gave them full access to a minority which they have 
relentlessly persecuted.
    It is our purpose to determine why the Pentagon made this 
choice because in light of what we know about the Communist 
Chinese relationship with the Uighurs, their stated explanation 
makes no sense to me. Can we really believe that the Communist 
Chinese regime cared if the Uighurs were being treated 
humanely? I realize this incident occurred in 2002. The 
question now is, is this policy still in effect? Has it been 
changed? Is it being reassessed by the Obama Administration?
    Let us remember the words of our first President, George 
Washington, who once wrote that he hoped that America, and 
these are his words, ``might become a safe and agreeable asylum 
to the virtuous and persecuted part of mankind, to whatever 
nation they might belong.'' Well, by allowing the Chinese 
Communists into our detention facility we became other than 
something than a safe and agreeable asylum.
    Last June, Mr. Rohrabacher and myself sent a letter to the 
Bush Administration requesting that the Uighurs then at 
Guantanamo be promptly paroled into the United States. In the 
near future, I, and I am sure he will join me, will be sending 
a similar letter that I hope many of our colleagues will join 
in to President Obama calling on him and his Administration to 
parole and resettle at least some of the Uighurs at Guantanamo 
into the United States.
    As was stated at our first hearing by former Deputy 
Assistant Secretary of State for East Asian and Pacific Affairs 
who was intimately involved during the Bush Administration with 
the issues attendant to Guantanamo, and this was Secretary 
Shriver and these were his words: The situation of the Uighurs 
can be described as nothing short of tragic, and these men were 
wrongly imprisoned.
    It is now time, I would suggest, to seize this opportunity 
to fulfill Washington's dream and once again become a safe and 
agreeable asylum for the virtuous and persecuted part of 
mankind.
    Now let me turn to my friend and ranking member, Mr. 
Rohrabacher, for any statements he may care to make. Dana?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Before 
we get into this hearing, I think it is important for me 
personally to note that I am not now, nor have I ever been, 
opposed to Guantanamo as a holding spot for terrorist suspects 
during the war with Radical Islam.
    I think that it was and is a logical location, and I 
disagree with the idea that terrorist prisoners especially in a 
wartime situation, which we face now with Radical Islam having 
declared war on the United States, having slaughtered thousands 
of our people, that I find I also disagree with the idea that 
everyone picked up in that situation deserves the same rights 
as American citizens do here at home during criminal 
investigations. So right off the bat let me note that.
    Let me also go even further that unlike many, most of my 
colleagues, I do not even oppose enhanced interrogation of 
prisoners taken during this war with Radical Islam. If indeed 
physical force is used against a prisoner that we are certain 
and it ends up saving the lives of thousands of Americans, I 
would expect that our protectors use enhanced interrogation, 
physical force, to save the lives of my family and American 
families throughout our country.
    I know there are others who disagree with this, and I 
remember we had a hearing and there was a back and forth on 
this very issue and I suggested to those people who were 
screaming at me from the audience that I would hope that their 
families are the ones that would bear the burden of the 
consequences if that policy is adopted.
    I would suggest that each and every one of us has to 
examine our hearts and say okay, will we really let our mothers 
and fathers and our children be slaughtered because we will not 
use physical force on someone like Khalid Sheikh Mohammed, who 
was the mastermind of 9/11.
    So with that preface so that people know that I am not a 
bleeding heart liberal or anything like that----
    Mr. Abercrombie. Mr. Chairman?
    Mr. Delahunt. Like you have never been accused of that.
    Mr. Abercrombie. Mr. Chairman?
    Mr. Delahunt. Yes, Mr. Abercrombie?
    Mr. Abercrombie. I don't think there is any danger of that.
    Mr. Rohrabacher. Well, with that said, let me then get into 
the subject of today's hearing.
    If indeed you hold the positions that I hold, I think it is 
incumbent upon those of us who believe that those are the 
standards that we need to operate on during a wartime situation 
where again thousands of our own private citizens have been 
slaughtered and we have an enemy that is willing to slaughter 
even more if they had a chance.
    We realize that we have that standard of behavior and 
relationship to that threat. If you believe in that standard of 
behavior, it behooves those of us who advocate it to be 
committed to truth and committed to honesty and to understand 
when you have a standard like that that you must be so careful 
about your analyzing what the truth of any situation is that 
you are willing to admit mistakes and correct them.
    In this case what we have is a mistake that our Government 
made during this war with Radical Islam. We offered what? We 
offered $5,000 a head for people in Afghanistan to turn in 
people that were suspicious and then immediately took these 
Uighurs who were turned in for $5,000 a head who were not 
captured on the battlefield but instead were living in a 
village away from the battlefield, people that never 
participated in combat against the United States, and we took 
them to Guantanamo.
    It was a mistake to begin with to do that and perhaps even 
a worse mistake that once the interrogations happened and from 
what we have gleaned from information already is that once 
interrogations happened even the interrogators realized these 
were not hard core Radical Islamicists who hate America. We 
should have admitted the mistake at that moment and corrected 
it. Somebody was covering up their mistake and their mistake in 
judgment.
    So if we are to succeed, I think we have to have a tough 
standard, and if we are to be honest and if we are to be a 
country of integrity we must make sure that we are brutally 
honest about mistakes that are made within those standards.
    So first of all, I would like to express my personal and 
deep sadness and regret and apologies to the Uighurs who were 
treated inhumanely and thoughtlessly by our Government in being 
turned over to Chinese interrogators working for a dictatorship 
that oppresses their people.
    I believe, and I am sure that my chairman believes this as 
well, that it should be the highest priority of this 
subcommittee to find out exactly who were the American 
officials that agreed to this interrogation, and we need 
perhaps to have an understanding why after the initial 
interrogations before the Chinese got there that we proceeded 
to do something like this.
    We need to know who the American officials who made these 
decisions were, and again if we are going to have a high 
standard that we have or a tough standard while we are fighting 
this war with Radical Islam we need to make sure that those 
making the decisions are held accountable for those decisions 
and insist on a high standard of honesty and truth.
    That is why I was one of the few Republicans that voted in 
favor of having interrogations of prisoners, of all prisoners, 
to be videotaped because you then have proof of exactly--you 
have honesty. You have truth verified.
    I don't think we have any apologies of, as I say, using 
enhanced interrogation and having it videotaped if you have 
someone who is involved with a conspiracy to murder our people, 
but we have a lot to apologize about if we are just acting 
basically like an unruly mob rather than an organized effort of 
government to protect our citizens.
    We have a right to understand because we are not an unruly 
mob. There are people who make decisions in positions of 
authority. We need to know who those people were in terms of 
making this decision that the Uighurs would be interrogated by 
Communist Chinese intelligence agents.
    I can only imagine how the Uighurs felt when American 
soldiers, people who they had actually looked to with great 
hope. Their only hope of the Uighurs were that America would 
stand true to its principles of liberty, we believe that human 
rights, that people are granted rights, all people are granted 
rights.
    You can only imagine the Uighurs understood this. They know 
that is what America believes, and then you have American 
soldiers tasked with the job of holding them down while the 
Chinese are interrogating them and holding them in place so the 
Chinese can take pictures of them and extract information about 
their families.
    I want to know who was to blame for that decision, who 
takes credit for that decision. We do know that the soldiers 
themselves were following orders, and I would suggest to the 
Uighur community they should not lose faith in the average 
American and the Americans who are in uniform who reflect our 
values as a people.
    They were following their orders, but those orders 
originated from officials in Washington, and I believe those 
officials should not be holding the job that they hold. They 
should be held accountable for this important decision.
    So that is number one. Let us remember that the decisions 
of our public officials in regard to the Uighurs has some 
relationship to the decisions that our Government has been 
taking about China for the last 30 and 40 years, especially the 
last 20 years.
    China has been since Tiananmen Square a country that has 
not been evolving into democracy, but has instead been a 
country that is run by a gang of murderous thugs who have been 
holding power with actually a more contracting grip on their 
people and the freedoms of their people for 20 years.
    Before Tiananmen Square, opening up relations and trying to 
have more trade and more interaction with a country like this 
was all right because they were going in the right direction. 
They were opening up.
    Well, the same officials that made the decision about the 
Uighurs and permitting Chinese agents, intelligence agents, in 
to question them are the same type of officials who have been 
guiding American policy with this vicious dictatorship for the 
last 20 years, and that policy is coming back now to hurt the 
American people dramatically both economically, but also 
throughout the world we see the Chinese Government allying 
itself with again the other thugs in the world who control 
their people and do not permit their people the freedoms that 
we believe are inherently rights of all human beings.
    So we need to know right now who are responsible for these 
policies, and we are going to focus specifically on the 
Uighurs, but I want to make sure everybody knows that does 
relate to an overall policy with China.
    With that said, I look forward to this hearing. I want to 
thank my chairman for his diligence on this issue, and I am 
very, very proud to serve as his ranking member.
    Mr. Delahunt. Thank you, Dana.
    I am going to call on Mr. Moran if he cares to make a 
statement.
    Mr. Moran. Thanks very much, Mr. Chairman. You in your 
opening remarks mentioned the fact that I am on Defense 
Appropriations, and in that role the chair of the Defense 
Appropriations Committee assigned me several years ago actually 
to take on the issue of Guantanamo, to go down, visit the 
facility, talk to personnel, come up with a policy 
recommendation for the committee that is required to fund 
Guantanamo and to explain to the full committee why it is that 
we would be providing the money for what purpose.
    I did so. On each of the occasions I went to Guantanamo 
with Pentagon personnel we were denied any access to the 
prisoners. Basically we were treated to a dog and pony show, 
although the second time it became far less comfortable for the 
Guantanamo personnel than the first time as I knew what to 
expect.
    But this revelation that Chinese Communist intelligence 
agents were granted access to the prisoners after the prisoners 
had been told by our people that all their personal information 
would be held confidential is a direct violation of the policy 
that I was told we would be pursuing, that we would be 
complying with, but it is also immoral to have done that, 
knowing the way that the Chinese Communist Government treats 
dissidents.
    When we get into questions I am going to want to know the 
disposition of the families of these Uighur detainees since we 
put them in direct jeopardy by releasing personal information 
of those families.
    We know that in the last month about 200 Uighurs have been 
executed by the Chinese Communist Government, and it seems to 
me since we were directly involved in putting them into that 
position of vulnerability that we need to know what the exact 
status of those families is.
    The analogy with Afghanistan is striking to me. In one 
case, because it was in our interest to help people who were in 
many cases deeply religious and thus deeply opposed to the 
Soviet Communist Government, we armed them, gave them training 
and all the support we could. And here in this case we have 
been on the other side, the side of Communist dictatorship in 
assisting them in repressing people who were primarily looking 
for religious freedom within their country of origin, so I 
think there are some inconsistencies in policy.
    Mr. Chairman, it is entirely appropriate that you have this 
hearing, and I trust that it is going to lead to a dramatic 
transformation in the policy that you have exposed, so I thank 
you, Mr. Chairman, for having the hearing.
    Mr. Delahunt. Thank you, Mr. Moran.
    Congressman Ted Poe of Texas?
    Mr. Poe. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    I too have been to Guantanamo Bay prison. Being a former 
judge I have seen a lot of prisons and have sent people to 
prison on frequent occasions. I, like the other members, wanted 
to interact more with the people that were there, and of course 
that was forbidden. You could not do that. And then lo and 
behold, some foreign country, China, who has a horrible record 
of the way it treats its own people, has access to prisoners 
that are held in an American prison facility.
    Now, that strikes me as very odd why we would let some 
foreign country come in and interrogate basically our prisoners 
and give them access to them and let them interrogate them for 
their own intelligence reasons and not allow even Members of 
Congress to get close to those prisoners and certainly not ask 
them any questions.
    Like the ranking member, I don't trust the Chinese. I know 
they are our economic partners and we can't talk bad about them 
because they own so much of American debt and may even end up 
controlling our economy, but they treat their people in a very 
rough manner, and American policy should not allow foreign 
governments to come into our prisons and interrogate anybody. 
It is none of their business. After all, they are our 
prisoners.
    I will yield back.
    Mr. Delahunt. Yes. I thank the gentleman. I want to point 
out and I would commend to him reviewing the statements that 
were made by those three former detainees. I think it is 
important to read that.
    You weren't here, Congressman Poe, when I indicated that it 
is the intention of the committee to provide a venue, whether 
here in Washington or elsewhere, maybe via video link--I am not 
sure--where we, Members of Congress, can hear directly without 
a filter, without commentary these men so that we can make 
judgments and that the American people can make judgments 
because much has been said about the Uighurs by those I daresay 
who are ill informed and who have done a disservice not just to 
the Uighurs, but to what America stands for.
    As I said, it is my belief, and I believe it is shared by 
Mr. Rohrabacher. These men fled Communist persecution. I 
daresay if they were Tibetans they would be sitting here in 
this audience in front of us today. While I disagree with so 
much with my ranking member, I applaud his courage and his 
absolute perseverance to ascertain what the truth is because 
that is what America is about.
    It is the responsibility of this committee and other 
oversight committees in Congress to do what we can working with 
the respective departments and agencies in the executive branch 
so that we can ascertain what policies exist and, more 
importantly, how they are being implemented. I hope that we are 
turning the page.
    With that, let me see if the gentleman from Hawaii wishes 
to make a statement. He doesn't.
    Well, then let us proceed with our first panel, who is by 
himself, but he is here, which is a step forward. Mr. Alan 
Liotta is the principal director of detainee affairs for the 
Department of Defense.
    Mr. Liotta, welcome. I am happy that you are here, and 
please proceed with your testimony.

  STATEMENT OF MR. ALAN LIOTTA, PRINCIPAL DIRECTOR, DETAINEE 
                 AFFAIRS, DEPARTMENT OF DEFENSE

    Mr. Liotta. Thank you, and good morning, Mr. Chairman, 
members of the subcommittee. I appreciate the opportunity to 
discuss the Department of Defense's detention operations at 
Guantanamo Bay.
    To address the subcommittee's concerns, I would like to 
speak briefly about the Department's policy of access to 
detainees at Guantanamo, as well as the issue and challenges of 
such visits. At the outset, I would like to note that we 
currently hold fewer than 230 detainees at Guantanamo, less 
than a third of the total number ever detained there.
    With regard to our detention operations at Guantanamo, it 
is undoubtedly the most transparent military detention center 
anywhere in the world. Within the Department, we have worked 
diligently to establish a state-of-the-art facility that 
provides safe, humane, transparent and legal custody for each 
detainee.
    We have allowed numerous media outlets and human rights 
groups access to the facilities to observe proceedings and to 
participate in camp tours. We have also brought senior foreign 
officials to Guantanamo to better understand detention 
operations.
    These visits continue, and we facilitate as much access as 
logistically possible to the media and these other groups to 
ensure transparency and accountability in our operations. Over 
the past 7 years we have brought 52 U.S. Senators, 168 
Representatives and 300 staff members to Guantanamo on official 
congressional delegations.
    Mr. Delahunt. Mr. Liotta, let me, and I respectfully want 
to--I don't mean to interrupt you, but I want to ask you if 
those 52 Senators, those Members of the House and those 
staffers ever were allowed to interview any of the detainees at 
the facility?
    Mr. Liotta. They were not, Mr. Chairman, for reasons which 
I will explain.
    Mr. Delahunt. Okay. Thank you. Thank you.
    Mr. Liotta. I have personally escorted more than a dozen of 
these trips. Through these visits, as well as through 
congressional testimony and briefings, we have provided our 
respective oversight committees, as well as other dedicated and 
interested Congressmen and Senators, a look into our 
operations.
    In every case, the visitors have expressed their 
appreciation for the tremendous and outstanding work our young 
men and women in uniform are doing in the most arduous of 
circumstances. It is extremely stressful duty, yet these young 
soldiers, sailors, airmen, marines and coast guardsmen do it 
with pride and excellence every single day.
    To ensure the safe and humane operations of all Department 
of Defense detention facilities and to comply with our 
obligations under international law, it is the policy of the 
Department of Defense to limit access to detainees under our 
legal control. This is not simply for detainees in Guantanamo, 
but for those we also hold in Iraq and Afghanistan as well.
    We do this for three principal reasons: First and foremost, 
to ensure the safety of the detainees and U.S. personnel; 
Second, to shield detainees from public curiosity to remain 
consistent with the Geneva Conventions; and, third, to avoid 
complications with ongoing litigation in U.S. courts.
    Without question, the single greatest reason to limit 
access to detainees is to provide for their personal safety, as 
well as that of the guards and the military personnel who 
interact with them on a daily basis.
    It is not unique to Guantanamo that every interaction a 
detainee has with an individual from outside the camp affects 
not only that detainee, but all those who live in the same camp 
with him. The arrival of individuals from outside the camp 
changes the mood, the demeanor and the overall temperament of a 
camp, in turn affecting the security dynamics within that camp.
    Second, our international law principles warrant that we 
limit access to detainees in our custody and control. The Third 
and Fourth Geneva Conventions contemplate that nation states 
shield detainees from the public eye and protect them from 
public curiosity. The facilities at Guantanamo provide safe and 
secure living conditions, and the Department of Defense has 
determined that we simply will not permit a deliberate 
departure from the principles of the Geneva Conventions.
    Finally, as the subcommittee is well aware, almost every 
detainee at Guantanamo is involved in some sort of litigation. 
Allowing broad access to detainees would potentially complicate 
and prolong these litigation proceedings by raising questions 
about the presence of detainee counsel at interviews and the 
possibility of calling members of congressional delegations as 
witnesses in the litigation.
    I do not wish to leave the subcommittee the impression, 
however, that detainees are left alone and without contact. To 
the contrary, the Department of Defense recognizes the unique 
and primary role of the International Committee of the Red 
Cross to have unfettered access to detainees under our control 
and custody at Guantanamo, as well as in our theater detention 
facilities in Iraq and Afghanistan.
    Under the Geneva Conventions, nation states are required to 
give officials from the ICRC access to detainees. Accordingly, 
the United States grants the ICRC full access to all detainees 
interned at Department of Defense theater detention facilities.
    The ICRC conducts regular interviews with detainees to 
ensure proper treatment and to facilitate communication with 
their families. Our relationship with the ICRC is a productive 
one and we greatly value their observations, insights and 
recommendations. Senior Department officials meet regularly 
with the ICRC to discus our detention operations and policies 
and to address their concerns in a constructive and 
confidential dialogue at all levels of the chain of command.
    Our commitment to the ICRC to keep our dialogue with them 
confidential requires that we handle all communication between 
our Government and the ICRC as classified, but to ensure 
effective congressional oversight, as well as access to ICRC 
observations and recommendations, the Department provides 
regular briefings to Congress on at least a quarterly basis.
    During these briefings, the Department shares the entire 
collection of correspondence exchanged between our Government 
and their organization to provide insight into the full breadth 
and scope of the Department's relationship and communications 
with the ICRC. In this way we are able to ensure that we meet 
our international obligation to maintain the ICRC's 
relationship with those in our custody, while also providing 
Congress access to the same information so they can exercise 
effective oversight.
    Depending on the circumstances, there are some occasions 
when we will allow a foreign government access to a detainee if 
that country is considering accepting the transfer of the 
detainee for resettlement in their country. This is an 
exception to policy and is approved on a case-by-case basis.
    Similarly, some of the detainees at Guantanamo have 
committed crimes in their homelands or other countries, or they 
can be crucial witnesses in the trials of other terrorists. In 
such instances, foreign governments have made and continue to 
make requests to interview a specific detainee to assist in law 
enforcement actions. If a foreign government requests a law 
enforcement visit with a detainee, the Department evaluates 
each request on a case-by-case basis to determine whether to 
grant such access.
    Finally, the United States Government has in the past 
requested a foreign government's assistance in helping to 
determine the identity of an individual we have captured or for 
intelligence information they have about his terrorist links 
and activity. Such foreign requests for access on these grounds 
are extremely infrequent.
    In addition, some foreign governments may request access to 
a detainee to assist them in their own efforts to gain 
intelligence to assist them in identifying and aborting 
potential terrorist plots in their countries. When we receive 
such requests, however, they are assessed on their individual 
merits and in consultation with other appropriate U.S. 
Government departments and agencies to determine whether such 
access should be granted.
    I would like to stress to the subcommittee that in each of 
the set of circumstances I have described above when a decision 
to grant access to foreign law enforcement and/or intelligence 
officials is made it has been and currently remains 
longstanding Department policy that visiting foreign officials 
must agree that they will abide by all DoD policies, rules and 
regulations.
    This is codified in Department of Defense Directive 3115.09 
and remains our policy in all of our military detention 
facilities worldwide. Additionally, in all of the above-noted 
cases, the foreign governments who are allowed access are 
members of their nation's executive branch.
    Finally, I would be remiss if I did not stress that the 
Department also allows legal counsel access to their clients at 
Guantanamo. The Department goes to extraordinary lengths to 
facilitate attorney visits with their clients in detention 
facilities and to hold productive and privileged meetings with 
their clients in an environment that ensures the safety of the 
detainee, the counsel and government and military personnel. In 
2008, JTF-Guantanamo facilitated more than 1,800 legal visits 
and phone calls.
    To conclude, Mr. Chairman, our detention policies ensure 
that detainees under the control of the Department of Defense 
anywhere in the world are cared for humanely and in complete 
compliance with our obligations under the laws of armed 
conflict, applicable U.S. law and binding international 
treaties.
    I am proud of our outstanding service members who serve at 
Guantanamo, in Afghanistan and in Iraq who are committed to 
ensuring that our detention mission is carried out in a safe, 
humane, legal and transparent manner while balancing the needs 
of operational security. They deserve our gratitude.
    This concludes my statement, Mr. Chairman. I would like to 
thank you and the subcommittee for the subcommittee's time and 
attention to this important topic. As the subcommittee's time 
permits, I am prepared to respond to members' questions.
    [The prepared statement of Mr. Liotta 
follows:]Alan Liotta.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Delahunt. Thank you very much, Mr. Liotta.
    I know he has a number of commitments, and I am going to go 
first to the chairman of the Subcommittee on Land and Air 
Forces of the House Armed Services Committee, Mr. Abercrombie, 
for questions that he might want to post.
    Mr. Abercrombie?
    Mr. Abercrombie. Thank you very much, Mr. Chairman. I thank 
the other members for their indulgence.
    Mr. Liotta, aloha to you. Mr. Liotta, by way of full 
disclosure to you for the questions, I am a former probation 
officer, several years, including work at San Quentin Prison. I 
am also familiar with prisons. I have handled everything from 
traffic tickets to murder as an officer of the court, both 
making recommendations and supervising recommendations about 
probation and sentencing and supervision of felons.
    That is where I find the testimony a bit strange. Please 
forgive me. It is nothing personal, but could you just give me 
very briefly your background in law enforcement, if there is 
any?
    Mr. Liotta. I am a current government official, 
Congressman. I have no background in law enforcement.
    Mr. Abercrombie. Okay. That doesn't mean that you are not 
capable in this respect of giving definitive testimony.
    In other words, do you direct this at Guantanamo--that is 
what I am trying to get at actually--or are you the chief 
administrative individual? It says principal director, Office 
of Detainee Policy. Is that located here in Washington with the 
Department of Defense?
    Mr. Liotta. Yes, sir. It is at the Pentagon. I work for the 
Under Secretary of Defense for Policy, Ms. Michelle Flournoy, 
in the Office of Detainee Policy.
    Mr. Abercrombie. And when did you start your position?
    Mr. Liotta. I assumed the position in July 2004 when the 
office was created.
    Mr. Abercrombie. Okay. Very good. So then you have the 
background. I mean the history. You embodied the history then 
in your testimony.
    Mr. Liotta. Not of the entire history of its existence, but 
since that point.
    Mr. Abercrombie. Since that point.
    Mr. Liotta. Since that point. Yes, sir.
    Mr. Abercrombie. Yes. Thank you very much. In that context 
then I am a little concerned, the context I just outlined from 
my own background. Separate and apart from the question of the 
Geneva Conventions, which I was under the impression we said 
did not necessarily apply at Guantanamo--perhaps that can be 
explored a little bit later. I don't want to abuse my time.
    But what did strike me here is on page 2 of your testimony, 
your third point with regard to the reasons that you set forth 
for the policies. Third, to avoid complications with ongoing 
litigation in U.S. courts.
    Again going to my own personal experience, I don't 
understand how it is possible then to allow access of foreign 
governments to these prisoners before they have been tried by 
us. I understand completely the idea that you have enunciated 
very clearly about the possibility of other governments having 
an interest in terrorism within their borders, possible crimes 
of one kind or another under the laws of those nations that may 
have an interest in these individuals.
    But you yourself indicate in your testimony that the 
possibility if Members of Congress had been able to interview 
any of these people, for example, that they could be called as 
witnesses in litigation. Couldn't members of a foreign nation's 
intelligence operations or law enforcement operations then be 
called as witnesses if we then prosecuted someone in our 
courts?
    Mr. Liotta. Yes, Mr. Congressman. First I would like to 
emphasize that the detainees that we hold at Guantanamo are 
being held under the law of armed conflict, which is different 
than criminal and the criminal proceedings associated with 
that.
    But I would have to say that in terms of the litigation 
questions and the----
    Mr. Abercrombie. I understand that, Mr. Liotta. Honestly, I 
do. I am just referring to your testimony. You are saying one 
of the reasons Members of Congress could not interview or have 
a conversation with prisoners there is because they could be 
possibly called as witnesses in litigation.
    If that is the case, if you allow prior to prosecution of 
these detainees members of a foreign government's intelligence 
operation or law enforcement operation to interview them and 
interrogate them, couldn't they be then called by legal counsel 
as witnesses in a prosecution engaged in by the United States?
    Mr. Liotta. That would be under the purview of the 
Department of Justice, and I would not be qualified to respond 
to that specifically, sir. I am not an attorney, and those 
cases in litigation and the requirements are all handled by----
    Mr. Abercrombie. Again, I don't want to be argumentative 
with you, but this is your testimony. It is not mine. You are 
saying that Members of Congress----
    Well, did the Department of Justice say Members of Congress 
couldn't do this interview? I am not quite sure. How is it 
possible for Members of Congress to be involved in litigation 
if they had been involved with an interrogation or an interview 
with a detainee?
    Why wouldn't the same principle apply then to those who 
have done that from a foreign government?
    Mr. Liotta. I would defer to the Department of Justice on 
that.
    Mr. Abercrombie. Okay.
    Mr. Liotta. I would simply note that as I said at the 
outset of my testimony, I wanted to identify some of the 
challenges.
    Mr. Abercrombie. You see where I think the difficulties 
here are?
    Mr. Liotta. I am sorry?
    Mr. Abercrombie. I am very familiar with chain of custody, 
with chain of custody in terms of evidence. I am very familiar 
with it.
    If you allow a third party to come in, I can't imagine--I 
can't imagine--in any other prosecution, and you are talking 
about armed conflict here, so even more important because you 
are talking about possible war crimes and so on.
    I can't imagine in an American court system you would allow 
a third party to come in and interrogate somebody absent 
attorneys, by the way, and not have that destroy the capacity 
for having a trial that wouldn't be subject to a request for 
dismissal. I just wonder. What is the rationale behind it?
    Mr. Liotta. Congressman, I understand the question, but 
again I would have to defer to the Department of Justice, which 
is the----
    Mr. Abercrombie. So do you have a memo or something from 
the Department of Justice indicating that this procedure, these 
set of procedures, is agreed to by the Attorney General?
    Mr. Liotta. The Department of Justice is familiar with the 
policy. Yes, sir.
    Mr. Abercrombie. Well, that is not what I asked. Do you 
have something in writing from the Department of Justice that 
says allowing access to foreign governments by their 
intelligence officials or law enforcement officials is 
warranted or agreed to or will not in any way damage the 
capacity of the United States to prosecute detainees?
    Mr. Liotta. I would defer to the Department of Justice on 
that language, sir.
    Mr. Abercrombie. Okay. You say here law enforcement visits 
are done on a case-by-case basis. Has any government been 
turned down?
    Mr. Liotta. Yes, sir.
    Mr. Abercrombie. For what reason?
    Mr. Liotta. I cannot get into that in an open hearing, but 
I have offered to the subcommittee a classified briefing that 
can provide the details of the countries that have asked for 
visits, those that have been accepted, those that have been 
denied.
    Mr. Abercrombie. Okay. You say that they are assessed on 
their individual merits in consultation with appropriate U.S. 
Government departments and agencies. Do you consult with the 
Department of Justice?
    Mr. Liotta. We do, sir.
    Mr. Abercrombie. And what other agencies?
    Mr. Liotta. A wide variety of agencies, sir. The Department 
of State might be consulted. The intelligence community members 
might be consulted. It would depend on the nature of the 
request, sir.
    Mr. Abercrombie. And who does this determination in these 
agencies? Is there your equivalent somewhere in these agencies?
    Mr. Liotta. There is, sir. Most of the agencies have an 
equivalent. Yes, sir. Someone is responsible for detainees at 
Guantanamo.
    Mr. Abercrombie. And none of them have indicated that they 
are fearful that if you allow this kind of thing that it could 
interfere with the capacity to have a successful prosecution 
should you feel one is warranted?
    Mr. Liotta. I believe the other agencies would also defer 
to the Department of Justice on that point, sir.
    Mr. Abercrombie. Okay. Just a couple more questions. You 
say that foreign law enforcement and intelligence officials 
will abide by all DoD policies, rules and procedures.
    What process do you engage in to make sure that these 
people are familiar with DoD Directive 3115.09, and what do you 
do to determine that they will follow up?
    Mr. Liotta. There are briefings ahead of time. Sessions are 
monitored, and they would be interrupted if there was a 
violation.
    Mr. Abercrombie. Interrupted by who?
    Mr. Liotta. By the United States side.
    Mr. Abercrombie. And who is the United States side?
    Mr. Liotta. It would depend on the defense. If it was at 
Guantanamo, it would be the guard force that was involved.
    Mr. Abercrombie. The guard force?
    Mr. Liotta. Yes, sir.
    Mr. Abercrombie. Are you talking about troops?
    Mr. Liotta. Or the SJA, the legal counsel down there. It 
would depend.
    Mr. Abercrombie. Okay. The legal counsel for the DoD?
    Mr. Liotta. Yes, sir. For the Joint Task Force.
    Mr. Abercrombie. Yes. Now, in these interrogations that 
take place is legal counsel provided to the detainee?
    Mr. Liotta. Again, sir, I have offered a classified 
briefing, and I would be happy to discuss the parameters and 
how these meetings are conducted in a classified session.
    Mr. Abercrombie. I don't want to be argumentative, but I am 
not quite sure. I don't think my question is a classified 
question.
    Do you mean whether or not the detainees have legal counsel 
during an interrogation by a foreign national, that is 
classified?
    Mr. Liotta. I would prefer to provide that information in a 
classified briefing, sir, as part of the comprehensive briefing 
program. Yes, sir.
    Mr. Abercrombie. Excuse me, Mr. Liotta. I know what you 
would prefer to do, but that is not the question I asked.
    I have some difficulty. Is it a classified element as to 
whether or not--let me rephrase it. How is it possible to be 
classified in nature, the answer to the question of whether or 
not the detainee has his or her legal counsel available during 
the interrogation by a foreign national?
    The reason I ask that question, again not to be 
provocative, is that you have raised in your testimony the 
possibility that a Member of Congress even talking to someone, 
that that could obviate the capacity to pursue a successful 
prosecution and so legal counsel would be available. As I 
understand it, legal counsel was available at Nuremberg.
    The fact that they are detainees under the armed combat 
provisions doesn't obviate the necessity of having legal 
counsel available if a third party was making interrogation.
    Mr. Liotta. If I could, I would like to clarify. I don't 
believe that I said that it would complicate the prosecutions.
    I said it would complicate litigation proceedings, which 
there are a wide variety of that--habeas counsel proceedings, 
lots of other kinds of proceedings--outside of straight 
prosecutions.
    Mr. Abercrombie. Yes.
    Mr. Liotta. It is the concern that it would complicate 
those types of proceedings. That it could potentially 
complicate those proceedings is one of the three concerns that 
I listed.
    Mr. Abercrombie. That is what I want to know. Was legal 
counsel available to the detainees if they were going to be 
subject to third party interrogation?
    Mr. Liotta. Again, sir, I would defer that to a classified 
briefing.
    Mr. Abercrombie. Okay. I don't think it is classified 
information, but if you don't want to do it, we will get it. I 
will leave that up to the chairman.
    I just want to quote to you on page 3, ``Finally, I would 
be remiss if I did not stress that DoD also allows legal 
counsel access to their clients at Guantanamo.''
    I will ask you once again. Did these detainees who were 
interviewed, whether it was by the Chinese or anybody else, 
have legal counsel at Guantanamo during these interrogations? I 
am raising the question because I am reading your testimony, 
not because I am trying to look to put you in a difficult 
position.
    I am trying to understand whether I have a clear 
understanding of what I believe to be the clear implications of 
your testimony.
    Mr. Liotta. Yes, sir. I understand. And I apologize if my 
answer is not clear, and I would clarify this for you.
    In the testimony that you just read, my reference to legal 
counsel is in reference to their cases involving habeas 
litigation, those that are being prosecuted through military 
commissions, and other examples where there would be legal 
counsel involved along those grounds. That is what I was 
referring to in that statement.
    That statement and reference to legal counsel there had 
nothing to do with the other part of access and whether or not 
counsel were involved with that, which again I would ask to 
defer.
    Mr. Abercrombie. So you separate that kind of litigation, 
say a habeas corpus hearing? You separate that and perhaps the 
necessity or the desirability of having legal counsel present 
from the interrogation situation of a foreign national?
    Mr. Liotta. In that comment that you read I was referring 
strictly to the habeas litigation and the court proceedings 
that would be involved that way. Yes, sir.
    Mr. Abercrombie. All right. Finally then, from my 
perspective if that is the case do you have something from the 
Department of Justice and/or some other authority to make such 
a separation?
    Mr. Liotta. I don't believe it is a separation, sir. It is 
strictly that the testimony was referring to one aspect of 
legal counsel's participation and their work with the detainees 
at Guantanamo.
    Mr. Abercrombie. Well, I am sorry. I am not sure I 
understood what you just said. Could you repeat it to me?
    Mr. Liotta. You phrased your question, if I understood it 
correctly, in terms of a separation, and I am simply saying 
that I was not referring to a separation in my testimony.
    I was only referring to the aspect of the counsels' ability 
to have access to their clients for the legal proceedings for 
which their clients are involved in, such as habeas corpus 
proceedings, litigation or if there are other cases they have 
brought suit against the Defense Department or the U.S. 
Government.
    Mr. Abercrombie. Then maybe my question wasn't clear. Do 
you have something in writing from competent authority that 
tells you that in the circumstances of a foreign national 
interrogating one of the detainees that the admonition that you 
just cited to have legal counsel available for habeas corpus 
proceedings or some other proceeding need not be observed?
    Mr. Liotta. I am sorry, sir. Could you repeat the last part 
of that?
    Mr. Abercrombie. Yes. In other words, do you have something 
in writing that says where you are required to have legal 
counsel for a litigation proceeding like a habeas corpus 
proceeding you don't have to have counsel for the detainee if 
it is a circumstance involving an intelligence agent or a law 
enforcement agent from a foreign power coming to make the 
interview?
    Mr. Liotta. There is nothing that I am aware of on that, 
sir, but I would again defer to the Department of Justice as to 
whether there is such a distinction that has been made.
    Mr. Abercrombie. Well, then I guess it forces me into 
another question though before I conclude. Does the Department 
of Justice have observers there or something?
    If you have to refer to the Department of Justice over and 
over again and you have supervisors there at one level or 
another, either troops or officers stationed at Guantanamo, do 
they have access to and are there Justice Department personnel 
there to advise them as to what they can do and not do?
    Mr. Liotta. During their habeas visits?
    Mr. Abercrombie. At Guantanamo.
    Mr. Liotta. Yes, sir. But, Mr. Congressman, there are many 
different types of activities that occur there. In terms of 
legal counsel, there are not Department of Justice officials 
there when lawyers meet with their clients. Those are 
privileged meetings between the clients and----
    Mr. Abercrombie. No, no. I am talking to give you advice or 
those over whom you have authority.
    You say you defer to the Department of Justice in answer to 
my questions again and again and again. Is the Department of 
Justice actively involved then in the day-to-day supervision of 
what can take place and not take place in this context of third 
party foreign nationals interviewing prisoners?
    Mr. Liotta. The Department of Justice is not day-to-day 
involved in our operational activities. They do provide advice 
and counsel to us in their role.
    With regards to the advice and counsel they provided in 
terms of access by foreign officials for intelligence 
briefings, again, sir, I would defer to a classified 
presentation for that.
    Mr. Abercrombie. Thank you. Mr. Chairman, thank you for 
your indulgence. My observation----
    Mr. Delahunt. Thank you, Mr. Abercrombie. As I listened to 
your questions and I reflect for a moment, I am going to ask 
you to consult with the chair of the full committee about a 
series of hearings at the subcommittee level that are joint in 
nature.
    And I would ask Mr. Moran and I see in the audience and I 
welcome to the dais our dear friend from California, Ms. Eshoo, 
who is a senior member of the Intelligence Committee.
    Now, I know the Executive always prefers to have classified 
briefings. You know, I think the American people have a right 
without compromising national security to understand what 
happened at Guantanamo, particularly in the case of the 
Uighurs. Let us keep it focused, exclusively focused on the 
information that has emerged since their release and the 
information that we have been able to secure.
    With all due respect, we are always being invited to 
classify briefings. Let me tell you, there is a sense among 
Members on both sides of the aisle that if the Executive or a 
particular department is able to secure the consent of Members 
of Congress to a classified briefing wow. We know that that 
information cannot be disseminated publicly.
    There is a balance here that has to be achieved because we 
need to have an informed American public to understand our 
policies and how they are implemented. One of our great 
strengths as a republic in our constitutional system is to, as 
the ranking member has said, acknowledge our errors and where 
we ran afoul so that we can make the necessary changes.
    I daresay that is the best message that the United States 
can send to the rest of the world. We are not afraid, and we 
have a system of checks and balances that will always allow the 
truth to emerge.
    Mr. Abercrombie. Mr. Chairman? Mr. Chairman?
    Mr. Delahunt. Mr. Abercrombie?
    Mr. Abercrombie. If you would just indulge me a follow up 
as a result?
    Mr. Delahunt. Please.
    Mr. Abercrombie. And I appreciate again the other members.
    The reason is I have, Mr. Liotta, if you will trust me on 
this, and we will make a copy available to you. I have a copy 
of an official response from the Office of the Attorney 
General, the U.S. Department of Justice, dated July 7, 2009, 
addressed to John Conyers, the chairman of the Committee on the 
Judiciary, with a copy to Lamar Smith, who is their ranking 
member, as Mr. Rohrabacher is here, on the Judiciary, in 
response to questions.
    On page 14 of the document from Ronald Wyche, the Assistant 
Attorney General, on questions submitted by Mr. Delahunt there 
is a reference by Mr. Delahunt--do you have that in front of 
you now?
    Mr. Liotta. Yes, sir.
    Mr. Abercrombie. Page 14. Could you look at page 14? A 
question is asked by Mr. Delahunt with regard to agents from 
China allowed to visit the Uighur detainees. The response by 
the Assistant Attorney General on behalf of the Department of 
Justice is, ``The Inspector General's Office stands by the 
accuracy of its report,'' the report which is referred to in 
the question.
    The relevant part for me here in the context of the 
question I asked you is, ``The Department of Justice does not 
control visitor access to Guantanamo Naval Base or access for 
interrogation purposes to detainees in the Department of 
Defense custody. Such access is controlled by the Department of 
Defense.''
    The second question then again is answered in explanation 
of why Chinese agents are granted more access than 
congressional delegation. ``The Department of Justice does not 
control visitor access to Guantanamo Bay Naval Base. Such 
access is controlled by the Department of Defense.''
    So if your answer to me is you defer to the Department of 
Justice, the Department of Justice has said in writing that it 
does not either control access to Guantanamo Bay detainees, and 
for interrogation purposes access with regard to those custody 
it does not control it. It is controlled by the Department of 
Defense.
    So again I must ask you. Have you explored in any way in 
writing from some competent authority whether or not you are 
actually possibly jeopardizing successful prosecution of 
detainees by the United States by allowing third party 
interrogations before that prosecution has been successfully 
completed?
    Mr. Liotta. Mr. Congressman, this is the first time that I 
have seen this testimony just handed to me, so I don't have the 
context.
    Mr. Abercrombie. Yes. I understand that.
    Mr. Liotta. I take it at face value what was responded 
here.
    Mr. Abercrombie. Me too. I just saw it myself.
    Mr. Liotta. Yes, sir. But as I read this as what has been 
presented to me, I mean, it is a statement of fact by the 
Department of Justice that the Department of Defense controls 
access, which is the point of my testimony to highlight for you 
the policy of that access and how it is derived and the 
limitations on that policy that is there.
    So I don't believe the statement of facts as presented by 
the Department of Justice response to the subcommittee 
chairman's questions are inaccurate. I think they are factual 
statements that are accurate, which is the Department of 
Defense controls that access, and I outlined that in my 
testimony.
    Mr. Abercrombie. Yes. I understand that. I am asking for 
the policy behind it. Do you understand that you may be 
jeopardizing the successful prosecution of terrorists?
    Mr. Liotta. And again, sir, for questions of prosecution 
and what would constitute a successful prosecution or what may 
jeopardize that----
    Mr. Abercrombie. Okay.
    Mr. Liotta [continuing]. I would defer to the attorneys at 
the Department of Justice.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Abercrombie.
    I am going to go to the ranking member, but if he would 
indulge me just for 1 minute?
    You indicated that requests by third countries on occasion 
have been denied.
    Mr. Liotta. Yes, Mr. Chairman.
    Mr. Delahunt. It is clear that in the case of the Communist 
Chinese Government that request was not denied. Is that an 
accurate statement?
    Mr. Liotta. As I indicated in my response, Mr. Chairman, I 
will not be able to talk about any particular country's request 
and whether it was granted or denied in an unclassified forum, 
but I am more than happy to provide detailed information on all 
the countries to the subcommittee in a----
    Mr. Delahunt. I am not going to press you on that today.
    Mr. Liotta. Yes, sir.
    Mr. Delahunt. But I think it is safe to say, given all of 
the information that has emerged, that the request of the 
Chinese Government for access to the Uighur detainees was 
granted by the government, by the Department of Defense or by 
somebody we don't know.
    I guess what I am offering to you is after today to go back 
to your superiors and inform them that we want an answer to 
that question in a public setting such as this. I am not going 
to press you today, but we want to know that answer.
    I guess I will expand on that somewhat by saying that we 
want to know if the request came from the Chinese or was it an 
offer that was without a request that was provided by the 
United States Government or one of its departments because I 
think to say that the response to that answer should be in a 
classified setting is absurd.
    Again, I know you are here and I know you have to return to 
the Department, but we are going to demand that answer, and I 
think that I can secure the concurrence of----
    Mr. Moran. Absolutely, Mr. Chairman.
    Mr. Delahunt. The concurrence of the House Armed Services 
Committee, the Appropriations Committee, and I will inquire 
from the lady from California, the Intelligence Committee.
    To suggest that that has to be done in a classified 
briefing is unacceptable to those four committees and I daresay 
to the United States Congress because that is laughable. Again, 
I don't mean to direct this at you personally, but we want 
answers. The American people deserve answers.
    One more question, and then I am going to defer if I can. 
We talked about a policy. Is there anything written down about 
guidance or a policy as it relates to letting the Chinese or 
anyone in to interrogate detainees at Guantanamo?
    Mr. Liotta. Mr. Chairman, first I will commit to you that I 
will bring the committee's request back with me to the 
Department----
    Mr. Delahunt. Thank you.
    Mr. Liotta [continuing]. And the passion behind the request 
as well.
    And then in response to the second question on whether 
there is anything written, again I would say, sir, that I can 
explain in more detail and would be happy to go over rules, 
procedures, all those things as of right now in a classified 
setting.
    Mr. Delahunt. Okay. But I guess I can infer that there is 
something in writing?
    Mr. Liotta. Affirmative. Yes, sir, there is.
    Mr. Delahunt. Thank you. I yield to the gentleman.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and 
congratulations, Mr. Liotta, for your courage in coming here 
today and being willing to be interrogated by a panel like 
this. I notice that you are sitting there by yourself, and so I 
admire that.
    Let me just note that your comments about----
    Mr. Abercrombie. Mr. Chairman, Mr. Rohrabacher knows what 
it is like to be by himself.
    Mr. Rohrabacher. Thanks for reminding me. Your comments 
about the hard work and the diligence and the gratitude that we 
owe our personnel who have served in Guantanamo and people like 
yourself who have been given certain authority and 
responsibility to handle a very hard part of this war against 
Radical Islam.
    I mean, this is an extraordinarily difficult part of that 
overall operation that protects the American people, and those 
soldiers that have been at Guantanamo and those people who have 
conducted interrogations and yourself and others who have been 
engaged in this, I think that we owe a great debt of gratitude 
to you for being able to take on a job, just like being able to 
come here today, so thank you for that.
    With that said, that doesn't mean that those of us who have 
concerns may totally disagree with the policy that you as 
soldiers and you as employees of our Government have had to 
implement and so today I would say that you have done your job 
as well as could ever be expected in defending what I consider 
to be an indefensible policy.
    That doesn't mean that you are wrong. That means the policy 
is wrong, but maybe you have done a good job in defending the 
policy because that is your job. So with that said, let me just 
ask a few questions about policy here.
    So it is our policy, it is our Government's policy, that 
information that is received from these interrogations that we 
are talking about with the Uighurs and others is classified, is 
not available to the American people and to their elected 
Representatives outside of a secret criteria of which we can 
learn the knowledge? Is that right?
    Mr. Liotta. Under the current policy, that is correct, sir.
    Mr. Rohrabacher. Okay. So doesn't it sound a bit absurd 
that people who are elected in a democratic government to 
represent the people and the interests of the people and the 
people themselves are unable to have access to information 
because it is classified and secret information, but it is 
information that we have given to the intelligence agents of a 
dictatorship that hates the United States of America?
    Do you get what I mean? Chinese Communists, government 
officials and their agents have information and we can't? Would 
you think that is a bit absurd?
    Mr. Liotta. Sir, I understand the frustration with that. As 
I said, I am limited. I cannot single out just the Chinese, but 
in all aspects of this policy.
    I would be happy to provide information about that in a 
classified setting, recognizing the frustrations that the 
committee has expressed with that.
    Mr. Rohrabacher. Okay.
    Mr. Liotta. But again, sir, I would add to that that we are 
and we remain in a war, and the information flow when a foreign 
delegation visits isn't just one way. It is also the other way.
    Mr. Rohrabacher. So we can trust the Communist Chinese 
intelligence agents, but we can't trust that information would 
be available to the American people because those intelligence 
agents must have the interest of the American people at heart 
as compared to elected officials by the American people?
    You get the absurdity of it. All right. Fine. It is your 
job to argue your case, and you have argued your case well.
    As I say, I think there are some things that are very 
disturbing about the actual position. Not disturbing about you, 
not disturbing about the men who conducted the interrogations, 
not disturbing about our military personnel. Disturbing about 
the policy and those who actually set that policy. I am 
assuming that you did not set policy and that you are a person 
who is here and it is your job to explain policy.
    Mr. Liotta. The policy regarding access was established 
long before I came to this position, sir.
    Mr. Rohrabacher. Okay. Well, let me ask you this. So the 
International Red Cross Committee has total access to 
prisoners.
    By the way, in the International Committee of the Red 
Cross, the ICRC, is there any person in that group that is an 
elected official?
    Mr. Liotta. To be honest, sir, I am not sure of the makeup 
of the ICRC and where their role is, but I don't believe so.
    Mr. Rohrabacher. Yes. It is made up of people who are 
appointed by someone else, a private organization or an 
international body, but not made up of anyone who represents 
people.
    You know, there is a fundamental difference between our 
country and other governments and agencies. In our country the 
power rests with the electorate, with the people of the 
country, but it seems that now you are saying the rules of the 
game that are policies that we are talking about would say that 
those people who are elected to represent the people of the 
United States have no rights in this particular area as 
compared to a group of unelected foreigners.
    Mr. Liotta. That was not the point I was making when I 
referred to the ICRC. I was simply referring to our obligations 
under the international preferences as they are recognized.
    Mr. Rohrabacher. Right. But as you see it----
    Mr. Liotta. But I see your point. Yes, sir.
    Mr. Rohrabacher. As you see, the policy is a group of 
unelected foreigners have more rights to oversee the 
implementation of American military personnel, foreign policy, 
dealings with this conflict, than do the elected 
Representatives of the people of the United States.
    Mr. Liotta. Sir, respectfully I would have to disagree that 
they have more rights. The Congress has been very prolific over 
time in providing us----
    Mr. Rohrabacher. Well, you have told us that they have 
absolute access and we have no access, so I would say that that 
is giving them more authority than we have, but we will leave 
that for the record as well.
    Again, this is not a reflection on you and it is not a 
reflection on the people who are actually having to carry out 
the orders that are based on the policies that we have 
asserted, that we have developed for our country.
    Let me note that I do not believe that it is necessary to 
have counsel available, legal counsel available, during 
interrogations of terrorist prisoners who are picked up on a 
battlefield. I don't think that is necessary. I disagree with 
my colleagues on that. I don't think that in wartime situations 
you have to go by the criminal justice rules of American 
citizens. I just want to make sure that is in the record.
    Let me ask you about this policy and about the things that 
we have said. Again, I echo my chairman's concern about always 
trying to get things into classified briefings, which then for 
the public that doesn't know knows that once we have a 
classified briefing even if we know 98 percent of what has been 
told us, then there are controls on what we can say and what 
the American public can know or what our opinions are of 
certain aspects because at that point we can be accused of 
releasing classified information that maybe everybody else 
knows anyway.
    Male Voice. Like the Chinese ones are going.
    Mr. Rohrabacher. Like the Chinese Communist intelligence 
agents.
    Mr. Liotta. Sir, I sympathize with that position.
    Mr. Rohrabacher. Yes. And let me also again reiterate I 
actually did not know over all these years that those U.S. 
Senators and Representatives that went to Guantanamo did not 
have access to the prisoners themselves to even ask them a 
question. I did not know that.
    I would say that had I known that, I would have paid a lot 
more attention to the complaints of my Democrat and liberal 
colleagues about Guantanamo if I had known that we as a body, 
as the elected Representatives of the American people, did not 
have access to those prisoners to hear something that they 
might want to tell us.
    Had we had access, perhaps this incident today with the 
Uighurs could have been corrected a long time ago.
    Mr. Delahunt. Would my friend yield a moment?
    Mr. Rohrabacher. Yes.
    Mr. Delahunt. I wanted to state as a matter of record that 
our request was supported by all of the Uighur detainees. Their 
counsel had consulted with them. Their legal counsel had 
consulted with them. Legal counsel reported back to the 
committee that they were able to secure whatever waiver was 
necessary because those men that according to a Bush 
Administration official, Assistant Secretary Shriver, had been 
wrongly imprisoned.
    Again, I want to note for the record that I respect his 
testimony before this committee for that admission and that 
acknowledgement, but I daresay that those men, those Uighurs 
who were interrogated, intimidated and threatened by Chinese 
Communist security agents, did not give their consent and were 
not willing, but felt coerced to be interviewed by the agents 
of that repressive regime.
    With that I thank the gentleman for yielding.
    Mr. Rohrabacher. Again, had we had access I can imagine 
that if we had been down there and one of these Uighur 
prisoners would have through an interpreter told us, a Member 
of Congress, by the way, we love America and we just came over 
here to learn how to fight the repression that our people 
suffer from the Communist Chinese Government, that would have 
been enough to trigger.
    At least if anybody would have told me that, that would 
have triggered a situation where we could have corrected this 
wrong a long time ago, but instead they have had to suffer 
years because of a lack of ability to talk, to have 
communication with elected Representatives.
    It says here the Third and Fourth Geneva Conventions 
contemplate that a nation state should shield detainees from 
the public eye to protect them from public curiosity. You are 
using that as the basis for a denial of access to the elected 
Representatives of this government.
    Is that what the Defense Department believes is what 
elected government is all about, public curiosity?
    Mr. Liotta. No, sir.
    Mr. Rohrabacher. Okay. I didn't think so. I would suggest 
that is not a very good argument, but I understand you had to 
make every argument that you could.
    Now let us go to the policy. What I would suggest is if you 
cannot answer these questions I would suggest that you answer 
them in writing to us if you can. I wouldn't expect that you 
would be able to right off the top of your head be able to come 
up with all these answers.
    But who were the Chinese interrogators? Were they 
intelligence people, or were they members of the Consul 
General's Office or something here or embassy staff in 
Washington?
    Mr. Liotta. Again, Congressman, with regard to whether they 
were Chinese interrogators or anyone else, I cannot talk in an 
unclassified hearing about the specific instances.
    Mr. Rohrabacher. Okay. So the Chinese Communist 
intelligence agents can know, but the American people can't 
know.
    I think it is the American people's right to know things 
like that. We have to keep secrets from our enemies. I 
understand that totally, but why do we have to keep secrets 
from the American people that our enemies obviously know about? 
So we will see.
    We will go into how far we will allow the Intelligence 
Committee briefing to be classified rather than try to get the 
people----
    Mr. Delahunt. Again if my friend would yield? I do want to 
consult with Ms. Eshoo and Mr. Moran and Mr. Abercrombie and 
members of those because these questions are the same questions 
I think we all have.
    Mr. Rohrabacher. Right.
    Mr. Delahunt. But I want to persist in being very clear 
that I cannot understand why the answers to these questions 
should be in a classified brief.
    Mr. Rohrabacher. Right. Considering the----
    Mr. Delahunt. I concur, and I think my colleagues do----
    Mr. Rohrabacher. Yes.
    Mr. Delahunt [continuing]. That these answers, and, Mr. 
Liotta, it shouldn't be you that provides those answers. 
Clearly when this policy was affected it was Secretary 
Rumsfeld.
    You know, we should extend him an invitation to come before 
this committee to explain that policy, and I think we have to 
extend an invitation to whether it is Secretary Gates or 
whomever from the Obama Administration.
    Are they changing this policy? Are they going to continue 
this policy or are they in the process of reassessing this 
policy, because I don't think it has the support of the United 
States House of Representatives.
    Mr. Rohrabacher. Reclaiming my time, you say that it was 
monitored. Were these Chinese personnel ever alone with the 
Uighurs without American supervision? You say it was monitored. 
Was it always monitored, or was there a time when they were 
alone?
    Mr. Liotta. I regret that I would not be able to answer 
that specific question in an unclassified setting, sir.
    Mr. Rohrabacher. All right. All right. And I guess all of 
these other questions that I have--I will submit a list of 
questions. Rather than taking up time now, I will submit a list 
of questions to you about this, and they will be specific 
questions. Just rather than take up the time of the hearing, we 
will just do this.
    Let me just end this, my segment of this, by saying that I 
think that again we are in a war with Radical Islam, and I do 
acknowledge that we owe such a debt of gratitude for people 
down there.
    I don't want this ever to be thinking this in some way 
besmirches the people who are down there guarding the gates so 
to speak and involving themselves in the interrogation of 
prisoners, which is a very incredible responsibility at a time 
like this when we know that prisoners could be deeply involved 
in conspiracies.
    You know, we found out from Ramzi Yousef. I remember that 
when we captured his laptop in the Philippines that there was a 
list of targets. One of the lists was Disneyland. They were 
going to have poison gas and kill thousands of families at 
Disneyland. Now, that is the kind of enemy we are up against. I 
understand that. I take it extraordinarily seriously.
    Obviously mistakes will be made in trying to prosecute such 
a war. We have to admit it when those mistakes are made and be 
brutally honest with ourselves and our people. We shouldn't be 
keeping secrets from our people that our enemies know because 
our people need to support the policies of this conflict.
    I have one last note, and that is Ramzi Yousef. I have had 
a request from the last Administration to see him in Federal 
prison. I was denied. Mr. Chairman, I am being denied and all 
of us are being denied the same access that was denied during 
the last Administration and George Bush. What a horrible man, a 
horrible President.
    Those very same restrictions are now on us and are now 
being reaffirmed in today's testimony by this Administration. I 
was against it then, and I am against it now. This is a 
bipartisan demand that the rights of the legislative branch of 
government be respected.
    Thank you.
    Mr. Delahunt. I thank my friend. I am going to----
    Mr. Liotta. Mr. Chairman, may I interrupt for 1 second?
    Mr. Delahunt. I am sorry.
    Mr. Liotta. I just wanted to respond to the ranking member 
that had to leave.
    Mr. Delahunt. Sure.
    Mr. Liotta. I just wanted to say, sir, thank you for your 
comments in support of the men and women there.
    I had the privilege to escort Mr. Berkowitz on a trip down 
to Guantanamo, and he made the point of your support for them 
when he was there. It was greatly appreciated. Thank you, sir.
    Mr. Delahunt. I thank you, Mr. Liotta.
    I am going to go to Congressman Moran since he has been 
waiting here patiently. I will not inquire. We have 13 minutes 
left, and I would like to be able to conclude with Mr. Liotta.
    Our second illustrious panel is going to have to wait for 
approximately an hour. You could go down to the fine dining at 
the Rayburn basement, but we are eager to hear from you.
    Mr. Moran?
    Mr. Moran. Thank you very much, Mr. Chairman. In reference 
to my good friend from California's remarks though with regard 
to Ramzi Yousef, I know he would agree it is somewhat 
irrelevant to the situation of the Uighurs since both the Bush 
and Obama Administrations have stated for the record that they 
do not constitute any threat to United States citizens, and 
that is what we are talking about today.
    Now, Mr. Chairman, is there not an obligation on the part 
of witnesses to respond to questions as accurately and as fully 
as possible? We used to have their hand and say that. We don't 
do that anymore, but certainly witnesses understand that to be 
the case.
    Mr. Delahunt. Of course they do.
    Mr. Moran. Now, if a witness is deliberately evasive, 
chooses not to answer a question or obviously answers a 
question untruthfully, can they not be held in contempt of 
Congress?
    Mr. Delahunt. That is my understanding.
    Mr. Moran. All right. Now, Mr. Liotta, let me ask you 
because in listening to the chairman, Mr. Abercrombie and Mr. 
Rohrabacher my frustration continues to mount.
    We all know--maybe not everybody in this room, but 
certainly on this part of the dais--and you know very well 
because you are employing this tactic that in order not to 
answer a question you can suggest it be provided in classified 
form.
    That is not acceptable. There is no classification of that 
answer. This is a manipulative, evasive tactic that you are 
employing. We have no requirement to accept that.
    Now, you have been asked directly were the Uighur detainees 
afforded legal representation during the interrogation by 
Chinese Communist agents. Yes or no?
    Mr. Liotta. Sir, I regret that I cannot respond in----
    Mr. Moran. Yes or no, Mr. Liotta? We are responsible to 
represent the interests of the American people. You are 
responsible to respond accurately and fully. I am not going to 
accept that.
    You know there is no classification of that answer. You 
know you don't want to answer it and so you are suggesting that 
this is somehow classified. It is not classified. There is no 
legal requirement, no authority, no instruction to you that 
this is classified information.
    You are using an evasive tactic. I want to know what the 
answer is. Were they afforded legal counsel? Yes or no?
    Mr. Liotta. Sir, I regret I cannot talk about the specifics 
of any visit for foreign----
    Mr. Moran. Who says you can't talk about it?
    Mr. Liotta. Under the current policy, sir.
    Mr. Moran. Whose policy is that?
    Mr. Liotta. Department of Defense classified policy.
    Mr. Moran. Who made the policy specifically?
    Mr. Liotta. I don't know specifically. I can get you the 
information. It was established before I came to my position, 
sir.
    Mr. Moran. You have been in since July 2004. I want to know 
and you need to provide us now where you get this information.
    Let me tell you. You know, there are some tools we have as 
well, and one of them is to eliminate funding for various 
offices to get a point across. Now, I understand that Ms. 
Flournoy is a very nice person. I have read about her policy 
and so on, but maybe it is time to get this to her attention.
    Why she is retaining someone that has been instrumental in 
sustaining a policy that has done more damage to our reputation 
and has provided more potency to the propaganda of the enemy 
than perhaps any other single policy, and that is our policy 
with regard to Guantanamo. Why you are still in your position 
since July 2004 is beyond me, so it brings into question her 
judgment.
    Now, we are going to mark up the Defense appropriations 
bill, and unless we get a full and accurate answer now I intend 
to offer an amendment to defund that office, and we will go as 
high as we need to do. It will give me an opportunity. Whether 
I insist that it be included in the bill or not, it will 
certainly give me an opportunity to explain to the entire 
Appropriations Committee and in front of television cameras why 
this is necessary.
    Now understanding the consequences of your response, do you 
still maintain that that is the appropriate response?
    Mr. Liotta. Yes, sir, I do.
    Mr. Delahunt. Is this a defensible policy to allow Chinese 
intelligence Communist agents to interrogate people under our 
control who we have recognized are no threat to the United 
States without legal counsel, to allow them to do that, not to 
allow United States Members of Congress access to them and then 
to provide personal information with regard to their families?
    This is a defensible policy on the part of the Department 
of Defense and you are prepared to defend that policy?
    Mr. Liotta. That is the policy that exists today. Yes, sir.
    Mr. Moran. That is the policy that exists today. Thank you. 
I wanted you to be on the record on that.
    One more point. Do you know what the disposition is of the 
families whose identities you revealed to these Chinese 
Communist agents in China? Do you know whether they have been 
executed or not?
    Mr. Liotta. Without reference to whether the Chinese visit 
occurred, which I can't refer to in this meeting, sir, I do not 
know their disposition of the families.
    I do know that we have established phone calls for the 
Uighurs on a regular basis so they can call back to their 
families, and they have done so successfully.
    Mr. Moran. Do you know whether they are still alive since 
there have been almost 200 Uighurs executed by the Communist 
Chinese Government in the last 2 to 3 weeks?
    Mr. Liotta. I do not know the specific dispositions of 
their family members with regard to----
    Mr. Moran. Do you think it is any responsibility of the 
Federal Government since you revealed that information to the 
Chinese Government?
    Mr. Liotta. I don't understand the question, sir.
    Mr. Moran. Well, do you think we have any responsibility or 
culpability as to the welfare of those families since we 
revealed personal information as to who their families are?
    Mr. Liotta. I cannot respond to questions that deal with 
whether or not a Chinese visit occurred, but I will say that we 
have as the Department of Defense undertaken and successfully 
been able to achieve phone calls between the detainees and 
their families so that they can stay in contact with them.
    Mr. Moran. Mr. Chairman, again we have made note of this, 
but the idea that the reasons for not allowing Members of 
Congress to have communication directly with detainees is 
concern for the safety of the detainees.
    Now, you allowed intelligence agents of a foreign country 
to interrogate them, but you are concerned about their safety 
and that is why you don't allow United States Members of 
Congress.
    You are concerned about public curiosity. As Mr. 
Rohrabacher suggested, apparently you are implying we would be 
seeing them out of some public curiosity.
    And then the third reason is to avoid complications with 
ongoing litigation in U.S. courts. Is there any litigation with 
regard to these Uighurs who have been determined by the Bush 
and Obama Administrations not to be any threat to the United 
States citizens?
    Mr. Liotta. There has been litigation. Yes, sir.
    Mr. Moran. With regard to these Uighur detainees, is there 
ongoing litigation in U.S. courts, reading from your testimony?
    Mr. Liotta. I would defer to the Department of Justice on 
the status of the ongoing litigation.
    Mr. Moran. Defer to the Department of Justice, and the 
Department of Justice says they defer to you.
    Mr. Liotta. Sir, I am deferring solely on the aspects of 
whether there is ongoing litigation with them.
    Mr. Moran. Mr. Chairman, this witness, while it has been 
informative to us to see how evasive the executive branch's 
policy is, has been singularly uncooperative and uninformative 
and evasive.
    I would hope that we would communicate that to Secretary 
Gates of the Department of Defense. To take up 2 hours of our 
time and not to directly answer any of the relevant questions I 
think is an absolute insult to the United States Congress.
    Mr. Delahunt. I thank the gentleman for his line of 
inquiry.
    Mr. Liotta, I understand that this is a difficult moment 
for you. I have no doubt that you have received instructions. I 
also have no doubt that you have seen the passion and the 
conviction of members who have participated in this phase of 
the hearing.
    I think there is a lot to learn in terms of the Executive's 
view of where we have been in the past in terms of this 
specific policy, and I daresay that it cuts across all of the 
relevant committees, between Foreign Affairs, Appropriations, 
the Committee on the Armed Services and the Intelligence 
Committee.
    Again, you find yourself in a very awkward situation, and I 
understand that and I respect that. At the same time, I know 
that you will return and report to your superiors about the 
passion with which members have spoken on this issue.
    It is of grave concern to us. It truly is because it is my 
belief and that of Mr. Rohrabacher that much of what has been 
said about the Uighurs, those that were detained, is false, is 
inaccurate, that they are not terrorists, and to deny them 
simply on that label the right to resettle in this country is a 
wrong that is a stain on our national honor and our history as 
articulated by the words I quoted from George Washington.
    I hope that you go back to your superiors, and I know that 
the Administration is working on a plan and a policy in terms 
of closing Guantanamo. While we ask other nations to take 
detainees, the fact that we will not at this point in time it 
would appear accept some detainees is unacceptable. Is 
unacceptable.
    Americans will understand if they hear the truth. If they 
know that these 22 men were innocent, were, as Secretary 
Shriver said, wrongly imprisoned and that their story is a 
tragedy they would welcome them, as Washington would.
    Rather than simply listen to pundits and those who want to 
secure political advantage by fear mongering, let us just do 
the right thing in this matter. That is the message I want you 
to take back to the executive branch.
    Congresswoman Eshoo and Mr. Carnahan, do you have anything 
to add?
    Mr. Eshoo. Mr. Chairman, I would just like to thank you for 
your legislative courtesy in inviting me to this hearing. It 
has been instructive.
    What I also want to extend to you is the full hand of 
cooperation of the House Intelligence Committee should you need 
it. I think the whole question of what is classified, why it 
was classified, has really not been established very well, at 
least not in terms of what I have heard, with all due respect 
to the witness.
    I think it would be very important to understand (A) who 
actually employed the statute to classified and the reason for 
it, which I don't think has been established here.
    Mr. Delahunt. Correct.
    Mr. Eshoo. And how we allow foreign intelligence services 
into our operations; of all foreign intelligence services the 
PRC.
    We have done a lot of work with foreign countries. I just 
left an Italian delegation who works with the United States so 
cooperatively.
    I am not aware of a great and high level of cooperation 
with the PRC intelligence services and the United States of 
America, so why we would entrust them to be in charge of U.S. 
detainees is a huge question.
    Mr. Delahunt. And subsequently label them as terrorists, a 
minority that we have prosecuted, and we accept their 
information at least in part and put the label of terrorist on 
these men whom, as Secretary Shriver said, were wrongfully 
imprisoned and now some would incite the fears that American 
people legitimately have and deny them the right to be paroled 
into the United States while we ask other nations to take them. 
That is not our America.
    Mr. Eshoo. Thank you, Mr. Chairman.
    Mr. Delahunt. Mr. Carnahan?
    Mr. Eshoo. Thank you, Mr. Chairman.
    Mr. Carnahan. I know we have votes, but I just want to add 
my thanks to you, Mr. Chairman, to our colleagues from other 
committees in this Congress.
    I think the witness and those watching this understand just 
how serious the Members of Congress take this and how we need 
to get to the bottom of this and find a solution.
    Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Carnahan.
    Mr. Liotta, thank you. Thanks for the forbearance, the 
courage. You can bring the message back. I want you to know 
that I know how difficult your task is, and I respect you for 
it. You are excused.
    We shall return in about 1 hour and look forward to the 
testimony from the other three witnesses.
    [Recess.]
    Mr. Delahunt. The committee will come to order again. Let 
me express my apologies and my gratitude for your indulgence.
    This is an important panel. I have read your testimony, and 
I think it is important that as we build a record of what 
occurred with the 22 Uighurs I think it is important that those 
who may be viewing this, whether it is C-SPAN or some other 
outlet, and clearly the committee will have a transcript 
available. I really do mean it when I say that your written 
statements were apropos, very informative, and I believe we are 
beginning to peel the skin off this onion.
    It is painstaking at times, but clearly I can tell from the 
conversations with my colleagues that interest is emerging not 
only in terms of the treatment of the Uighurs and the fact that 
they were wrongly imprisoned--and, as Secretary Shriver said, 
their story is a tragic one--but also the issue of 
classification and government secrecy. There is a growing 
concern on the part of Members of Congress. I wish that concern 
had arrived at an earlier date. Maybe we wouldn't be here 
today.
    But in any event, let me introduce for the record our 
second panel. The first witness will be Jason Pinney. He is an 
attorney with Bingham McCutchen in Boston. He, along with a 
team of lawyers from that firm, represent a number of former 
and current Uighur detainees at Guantanamo on a pro bono basis.
    I want to recognize in the audience Susan Baker Manning, 
who also has made a magnificent contribution to the rule of 
law.
    His billable work--I don't know whether he has time for 
billable work, but when he is earning his living he focuses on 
general, commercial and securities litigation. He regularly 
advises clients on a number of business matters, including 
class actions, shareholder suits and securities arbitration. He 
is a graduate of Union College and attended Boston College Law 
School where I graduated from as well a few years before you 
did, Jason.
    I am also very pleased once again to welcome my friend, 
Bruce Fein, as a panelist. He is a nationally and 
internationally renowned constitutional lawyer, scholar and 
writer, served as both Associate Deputy Attorney General for 
the Justice Department and General Counsel for the Federal 
Communications Commission under President Reagan. He later 
served as legal advisor to then Congressman Dick Cheney on the 
Joint Committee on Covert Arms Sales to Iran.
    Mr. Fein is the founding partner of Bruce Fein & Associates 
and is currently writing a sequel to his recent book, 
Constitutional Peril.
    Finally, I am happy to welcome Tom Parker of Amnesty 
International. He is the policy director for tourism, counter-
terrorism and human rights at Amnesty. He was previously 
executive director of the Iran Human Rights Documentation 
Center in New Haven, Connecticut, and has worked extensively 
during the past 5 years as a consultant on post conflict 
justice issues for clients such as USAID and the MacArthur 
Foundation.
    In 2003 to 2004, he served with the Coalition Provisional 
Authority in Iraq as the head of the Crimes Against Humanity 
Investigation Unit. He spent 4 years as a war crimes 
investigator with the International Criminal Tribunal for the 
former Yugoslavia and 6 years as a counterterrorist official 
with the British Government. He holds degrees from the London 
School of Economics, the University of Leiden and Brown.
    It is a pleasure to welcome such a distinguished group of 
witnesses, and why don't we proceed first with Mr. Pinney?
    Mr. Pinney. Thank you, Mr. Chairman.
    Mr. Delahunt. Jason, can you make sure you hit that?
    Mr. Pinney. Yes. There we go. Thank you, Mr. Chairman. May 
it please the subcommittee, though.
    Mr. Fein I believe has a time commitment of concern, so if 
we could defer to him I think that would accommodate the 
schedule.
    Mr. Delahunt. Thank you for your courtesy.
    Bruce?
    Mr. Fein. I have to leave at 2:35 or something like that. 
Maybe it won't be necessary to curtail the full explication.

 STATEMENT OF BRUCE FEIN, ESQ., PRINCIPAL, THE LITCHFIELD GROUP

    Mr. Fein. I want to address the points that I made in my 
written testimony that I guess have been submitted to the 
record because I think the Uighurs are a symptom rather than an 
aberration here of what has gone wrong with the United States 
not only post 9/11, but previously.
    The oversight function of Congress has been crippled. It is 
not just the lack of access for interviews, the withholding of 
information that should be reported to the Intelligence 
Committees, the invocation of state secrets, repeatedly keeping 
Congress in the dark, so there are no checks and balances.
    What I would like to do in my oral testimony here is to 
explain what I think can be institutional remedies to ensure 
that not only will we uncover what exactly happened with regard 
to the Uighurs. How did the Chinese Community security services 
get access? Who gave them access? Was it in exchange for a deal 
that the Chinese Communists would not veto our U.N. Security 
Council proposal to invade Iraq or otherwise?
    Those things linger, and I think I would suggest that the 
Congress consider the power of the purse as being really the 
juggernaut that enables them to get access to anything they 
want. For instance, what about, Mr. Chairman, access to 
detainees to interview?
    If you passed a law that simply said no monies of the 
United States shall be expended to detain any person at 
Guantanamo Bay who is withheld from an interview with a Member 
of Congress, that then ends the issue of whether or not they 
can withhold permission for you to visit. If they do, they 
cannot then detain that individual anymore. Put the 
Administration in the position of saying we have let go the 
worst of the worst because we don't trust your elected 
officials to interview these people.
    That is the kind of muscular effort that in my earlier 
years in Washington I saw exercised. For instance, the 1970s 
when there was complaints about the CIA's covert operations in 
Angola. The Congress simply passed a statute. There is no money 
for the CIA to fund any covert operations in Angola, and that 
was the end of the matter. So that is one thing that I think is 
exceptionally important.
    Also, I think that it was the testimony today by the 
witness for the Defense Department that I think reveals this 
psychology of Executive supremacy that is so dangerous to our 
institutions, the checks and balances to the ability to know 
what is going on, to suggest there may be wrongdoing or need 
for change not only because of the individuals involved, but 
because what we do also sets a precedent for what the other 
countries may do to our prisoners, our detainees, if we are 
captured and we don't want to give license to having happen to 
our American citizens what we may be doing to detainees from 
other countries.
    But let us look and see what the considerations that the 
Defense Department officials said in forming their decision 
whether to grant access for an interview or otherwise. First he 
says to ensure the safety of the detainees. Well, remember it 
is up to the Congress to decide what is the relative tradeoff 
between the need for openness and access in order to detect 
abuses and what the risk to the detainee.
    It is also somewhat odd that they would identify this as a 
consideration since by exposing the Uighurs to the Chinese 
security services they were creating a danger to the detainee 
and the family, not the other way around. So this is rather an 
Orwellian concept that only had credibility because the 
individual claimed classified information prevented him from 
answering directly what was done and what kind of information 
was given to the security services from the People's Republic 
of China.
    Now, the second consideration is to shield detainees from 
public curiosity to remain consistent with the Geneva 
Conventions. Now, I guess it is laudatory that now there seems 
to be a newfound scrupulousness toward compliance with the 
Geneva Conventions when before it didn't apply at all. Common 
Article I didn't prevent torture or inhumane, degrading 
treatment of detainees.
    But again, this comes back to the question of which branch 
of government makes this policy. There is assumption that the 
executive branch decides anything and you then are beholden to 
whatever they decide. The Congress of the United States decides 
whether or not that privacy interest justifies withholding 
sunshine, and we know that sunshine is the best disinfectant. 
That was a phrase Louis Brandeis fashioned well over a century 
ago.
    But this suggestion that it is up to the executive branch 
to make that tradeoff totally misconceives the Constitution of 
the United States. And then it says there is a third 
consideration here, and this relates to litigation. Well, we 
need to decide whether or not access would impair our ability 
to defend particular interests in litigation.
    There were two kinds of litigation that were mentioned this 
morning, Mr. Chairman. One was habeas corpus proceedings. Well, 
you will recall that habeas corpus was resisted and denied, 
anyone at Guantanamo Bay, until the U.S. Supreme Court's 
decision in the Boumediene case, which was a year ago.
    So this policy as crafted in 2002, 2003, were years before 
habeas corpus was available and was over the dead bodies of the 
Defense Department, not something that they welcomed in any 
event.
    Now, the second category of cases that he was referring to 
was military commissions. Now, military commissions are tried 
by military personnel. He was insinuating the Department of 
Justice tries those cases, but that is wrong.
    Now, there have been a grand total of three out of all the 
detainees, three military commission trials, and the vast 
majority of those at Guantanamo Bay the Administration has said 
are not going to be headed for military commission. I think the 
high water mark of the number who might be tried was going to 
be 20.
    So how does that apply to all the others who are not 
subject to any conceivable military commission trial? It just 
shows that this seemed like a concocted argument. In any event, 
it is up to the Congress of the United States to decide what 
risks you will have to litigation that are a tradeoff for the 
openness that you want in order to prevent abuses.
    Congress has done that with the Intelligence Secrets Act, 
which decides what kind of information has to be disclosed to 
the defendant if you are going to have a trial and if you 
withhold others which will end up in an ending of the 
prosecution because that denies the individual a fair trial.
    But I think Congress has to step up to the plate here. It 
is not going to be good enough just on can this individual get 
waivers, get them to tell you in public what happened to the 
Uighurs. There will be a second group of Uighurs in another 2 
or 3 weeks' time unless institutionally you have access.
    Just the threat, just the knowledge down there in 
Guantanamo that Mr. Delahunt can come down and look and 
interview these people at any time, that will have an enormous 
deterrent effect before anything happens whatsoever.
    It was President Reagan who said trust, but verify, and 
that is something that was needed not only with regard to the 
Soviet Union at the time, but all branches of government. What 
I found most disturbing about the Defense Department is that 
they view the Congress of the American people as their enemy, 
their adversary in this process.
    I remember Robert Jackson, the Associate Justice, writing 
in the Youngstown Sheet & Tube case the Constitution certainly 
anticipates a separation of power, a diffusion of power, but 
also some kind of integration, some kind of comity, because the 
fact is if you have that attitude of an enemy or an adversary 
or relationship between the branches the whole system will shut 
down.
    There would be an ability, for example, of the Congress to 
totally enfeeble the Executive. Just don't appropriate any 
money. If you want to shut down the White House, the Patorian 
guards, say there is only money for the President's salary. 
Nothing else.
    That obviously contradicts the whole purpose of having a 
separate branch of government, just like it would be the 
ability of the President to say we are going to shut down the 
Judiciary. Do you know why? I won't nominate anybody to fill 
vacancies. Then there can't be a Judiciary. So there has to be 
some kind of comity and understanding that you have to work in 
some sense together as an integrated whole if the whole system 
is going to work
    I would be delighted to amplify on these particular 
proposals, but I want to underscore my view. You have to change 
the whole structural way in which we conduct our operations 
openly if we are going to prevent these abuses.
    Transparency should be the rule. There should be a huge 
hurdle to deny transparency. Right now it is the opposite. The 
rule is secrecy, and it is like we make an exception to give 
you knowledge.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fein follows:]Bruce 
Fein.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Delahunt. Thank you, Mr. Fein. You echo my own 
sentiments.
    I would suggest, and we will go to Mr. Pinney in 30 
seconds, that is more than just simply structural, but I think 
what has evolved, and let me be very clear, under the Bush-
Cheney Administration is this penchant for lack of transparency 
and secrecy not just in issues such as this, but on every 
single issue.
    The head of the National Archives--I forget his name; I am 
sure you know it--commented on the overclassification of 
government documents. It is cultural, you know. And I have 
great hope that the Obama Administration will begin to erode 
that curtain of secrecy.
    Clearly there are remnants of that culture that are still 
very much embedded into the mindset, if you will, of many in 
the executive branch, but I think you probably observed today 
the fact that the lack of transparency and overclassification 
is a festering sore for many in the first branch of government.
    As you and I have discussed, I think it is really important 
that we begin to restore the appropriate role of the U.S. 
Congress in our constitutional scheme. So we will continue to 
move in that direction, and I am aware that it is going to be 
an effort of long duration and tedious and at times 
frustrating, but I can't agree more.
    Jason?

 STATEMENT OF JASON PINNEY, ESQ., COUNSEL TO UIGHUR DETAINEES, 
                     BINGHAM MCCUTCHEN, LLP

    Mr. Pinney. Thank you, Mr. Chairman. At this point I would 
like to read my written testimony into the record.
    My name is Jason Pinney, and I am an attorney with Bingham 
McCutchen in Boston, Massachusetts. First I would like to begin 
by thanking the subcommittee for holding these hearings 
concerning the continuing detention of the Uighurs at 
Guantanamo.
    Although these men have long been cleared of any 
wrongdoing, it is unclear why they were ever labeled as enemy 
combatants in the first place. As Justice Brandeis famously 
remarked and as Mr. Fein just reminded us, sunlight is the best 
of disinfectants.
    For the past 4 years I have been part of a team at Bingham 
McCutchen that has represented on a pro bono basis as many as 
11 of the 22 Uighurs imprisoned at Guantanamo. None of these 
men are enemy combatants, and there has never been any 
justification for holding them.
    Thirteen Uighurs are still imprisoned at Guantanamo today. 
They remain there this afternoon. They remain there because no 
country, including our own, has the courage to stand up to the 
Chinese and offer them refuge.
    The problem, however, goes far beyond our failure to 
resettle these men. An objective look at the evidence reveals 
that our country imprisoned the Uighurs as part of a quid pro 
quo with China.
    China, as Mr. Fein mentioned, is one of the five countries 
on the United Nations Security Council. In 2002 and 2003, we 
needed China's support in order to invade Iraq. In exchange for 
Chinese acquiescence in our war plans, we agreed, among other 
things, to label the Uighurs as terrorists and to house then at 
Guantanamo.
    What is more, we agreed to provide the Chinese with special 
and unprecedented access to the Uighur men. In September 2002, 
we allowed a delegation from the Communist Chinese Government 
to travel to Guantanamo and interrogate the Uighurs imprisoned 
there. The interrogations lasted for days.
    Mr. Delahunt. Mr. Pinney, let me interrupt you for a 
moment.
    At any time did any representative of the U.S. Government 
contact you or any other attorney, counsel to any of these 
Uighurs, if you know, seeking your consent that Chinese 
Communist agents interview your clients?
    Mr. Pinney. No, we were never contacted, nor, as you heard 
from the gentleman from the Department of Defense this morning, 
do they even confirm that the Chinese visited our clients at 
Guantanamo.
    Mr. Delahunt. But your clients have informed you that in 
fact their interrogation back in September 2002 in fact 
occurred?
    Mr. Pinney. That is correct. In addition, we have uncovered 
other government documents that have confirmed the visit, so we 
have absolutely no doubt that the visit occurred.
    Mr. Delahunt. Thank you. Proceed.
    Mr. Pinney. No representative from the United States was 
present during these interrogations. In the history of our 
republic, I cannot think of another example where a Communist 
country was invited to interrogate unsupervised prisoners of 
the United States in a United States detention facility.
    Despite our best efforts as counsel, no one has been 
permitted to meet with our clients at Guantanamo. The United 
Nations has been barred from meeting with the Uighurs. So have 
several human rights groups. The press has been denied 
permission to speak with the men or to publish pictures of 
their faces.
    Even members of this subcommittee, as you well know, Mr. 
Chairman, have been denied access to the Uighurs despite the 
permission of counsel and the desire of our clients to meet 
with you. It makes no difference that they are innocent men. 
The answer has always been the same. No contact has been 
allowed.
    The exception to this rule is the Chinese visit in 
September 2002. At that time our country permitted a delegation 
from the People's Republic of China to travel to Guantanamo and 
interrogate all 22 Uighurs held at the prison. Prior to the 
interrogations, the Americans, as you said earlier, Mr. 
Chairman, softened up the men by denying them sleep and in some 
cases food.
    Our Government also provided the Chinese interrogators with 
copies of the Uighurs' files, personal files with family 
information, despite prior assurances to the men that the 
information would never be shared with their Chinese 
oppressors.
    Mr. Delahunt. Let me interrupt you there. Your testimony is 
today that you were told by clients that you represented that 
they had been reassured that information regarding their family 
and their identity would not be shared with the Communist 
Chinese intel agents? Am I repeating what your testimony is 
accurately?
    Mr. Pinney. That is correct, Mr. Chairman. When our clients 
were picked up it was very important to them, given the prior 
conduct of the Chinese regime to do harm to family members of 
political dissidents. It was very important to them to keep 
that information confidential.
    They agreed to share that information with our military on 
the condition that it was not shared with the Chinese. That 
promise was broken in September 2002.
    Mr. Delahunt. In fact, they had fled their homeland because 
they feared persecution by the Chinese Communist regime. Is 
that what you have been informed by your clients?
    Mr. Pinney. That is correct. Many of our clients fled 
Chinese oppression that began in the late 1990s and continues 
to this past July 4 holiday.
    Mr. Delahunt. Please proceed.
    Mr. Pinney. Many of our clients have said that these 
interrogations were the hardest thing they had to endure during 
their 7 years of incarceration at Guantanamo.
    The Chinese made threats against their family and threats 
against the men themselves. Each of the Uighurs was told that 
he would be sent back to China and imprisoned or worse. The men 
were petrified what would happen to themselves and their family 
members if the Chinese carried out on their threats.
    They were also subjected to stress techniques such as 
forced sitting for many hours in a cold room, hands bound 
together, legs shackled to the floor. Some of this mistreatment 
appears to have been administered by United States military 
personnel at the instruction of the Chinese.
    All of this would not be possible without the support and 
cooperation of the United States. Military personnel went as 
far as forcefully holding up my clients' heads by the hair and 
by the beard so that the Chinese could take their picture.
    Statements from our clients' Combatant Status Review 
Tribunal transcripts exemplify the Uighurs' experiences at the 
hands of the Communist Chinese interrogators. Remarkably, these 
CSRT statements were all made in response to direct questions 
from Tribunal panel members.
    Sometimes it was the first question that these Tribunal 
panel members asked during our clients' hearings. It appears 
that some of the military officers at least were concerned 
about this Chinese visit way back in 2004 when these hearings 
were held.
    There are several examples from the CSRT transcripts that I 
can cite. I would like to share one with you today, and then I 
would like to talk a little about some statements that my 
clients made just recently and we have submitted into this 
subcommittee's record.
    Salahidin Abdulahat, who is one of my clients now in 
Bermuda, described to his Combatant Status Review Tribunal how 
he was forcefully interrogated, threatened and deprived of 
sleep and food by the Chinese delegation. Furthermore, he 
described how, ``There was an American person representing the 
President's house,'' who threatened to send him back to China 
if he did not cooperate with the Chinese delegation.
    He said that the Chinese ``took our picture forcefully and 
recorded our voices and threatened to hit us and do other 
things.'' He pleaded with the CSRT panel to ``not let those 
things happen to us again because it would hurt us really 
bad.''
    Most of the Uighurs refused to cooperate with the Chinese 
interrogators in September 2002. As punishment, the Americans 
put all but two of them in solitary confinement for up to 20 
days. No light, no air, no human contact.
    I asked three of my clients prior to testifying here today 
to describe their interrogation experiences in greater detail. 
Abu Bakker Qassim, who is now in Albania, Ablikim Turahun, who 
is now in Bermuda, and Khalil Mamut, who is also in Bermuda, 
have all submitted written statements to the subcommittee. I 
would like to take a brief moment to highlight a few excerpts 
from these statements.
    First is from the statement of Mr. Qassim. Mr. Qassim was 
released into Albania in 2006 along with four other Uighurs. 
Picking up in the middle:

          ``After I refused to answer any more questions, the 
        Chinese interrogators failed to proceed further. They 
        brought out their camera to take a picture. I refused 
        to be photographed. One Chinese interrogator went 
        outside and brought in two American soldiers. These two 
        soldiers held me tight, and the Chinese forcefully took 
        a picture of me. I had never thought that American 
        soldiers would work with Chinese and treat us like 
        this.<greek-l>'' deg.
          ``Then I was locked in a cold, dark steel prison cell 
        for 5 days. I was released to a regular prison cell 
        after the Chinese left. During the 5 days when I was in 
        the cold, dark cell, while thinking about the Chinese 
        harsh treatment toward us in a U.S. prison, I felt sick 
        with the American soldiers.<greek-l>'' deg.
          ``After the Chinese had left, during an interrogation 
        I asked the interrogators why they released all of our 
        materials to the Chinese, even though they had promised 
        to keep our information confidential. The Chinese could 
        now randomly oppress our family members. The 
        interrogators did not feel a bit ashamed about it. They 
        apologized by saying that someone in Washington had 
        given our materials to the Chinese.''

    Now, Mr. Chairman, I would like to read a brief excerpt 
from the statement of Khalil Mamut:

          ``In the beginning of autumn of 2002, a delegation 
        from China representing the Chinese Government arrived. 
        It was afternoon when I was informed by one of the MPs 
        that I was to get ready for an appointment. I was later 
        escorted by two military soldiers to the interrogation 
        room.<greek-l>'' deg.
          ``Once I arrived there, two men came in. One was from 
        the American Government, and the other was from the 
        Communist Chinese Government. The American spoke 
        Chinese, saying I am from the American Government, and 
        we have an agreement with the Chinese Government. 
        Therefore, we have allowed them to come here to 
        interrogate you. The Uighur man translated the American 
        man's instructions into our language.
          ``After the introduction, the Americans departed. 
        Following their departure, two different men arrived. 
        One looked Uighur and the other Chinese. They abused me 
        by telling me that they would take me by force when I 
        returned to China and I would be beaten and eventually 
        killed. I informed them that I do not wish to go back 
        to China. Then they became even angrier, and they 
        attempted to take my picture. I refused to allow them 
        to do this. However, they were eventually able to take 
        some pictures as I was shackled and 
        chained.<greek-l>'' deg.
          ``Then the two men ordered the American soldiers to 
        take me to another room. Once I arrived at this new 
        location the air conditioning unit was turned onto full 
        blast and I was left in this room for 7 straight hours. 
        The room became extremely cold. In this room I once 
        again had shackles on my feet with my hands also 
        chained. In the evening I was returned to my cell.''

    Mr. Chairman, if I could one more brief statement from----
    Mr. Delahunt. Mr. Pinney, let me ask you a question on that 
last recitation. It was the Chinese Communist agents that 
instructed the American military personnel to take your client 
to another room?
    Mr. Pinney. That is correct. Mr. Chairman, there is a 
report issued by the FBI last year that confirms that American 
military personnel operated under the instruction of the 
Chinese in abusing our clients during this visit.
    Mr. Delahunt. Thank you. Proceed.
    Mr. Pinney. Finally, I would like to read a brief excerpt 
from the statement of Mr. Turahun:

          ``They called for American soldiers and ordered them 
        to hold me so that my picture could be taken. The 
        soldiers grabbed me, pulled my beard, pressing my 
        throat, twisting my hands behind my back, and as a 
        result my picture was taken by force.<greek-l>'' deg.
          ``The air conditioner in the room was placed on high, 
        making the room very cold. I was left in this room for 
        6 hours. As a result of the room being so very cold, I 
        felt somewhat frozen at times.
          ``After this 6 hour period I was placed in an 
        isolation room that was made of metal and measured six 
        feet by eight feet. There I remained for 20 days in 
        isolation. The room was so very cold and dark. I was 
        not able to see daylight or another person. During the 
        20 days it was very difficult to sleep because I was 
        not given any blankets or sheets by which to cover 
        myself in this isolation room. I spent those days 
        suffering.<greek-l>'' deg.
          ``I requested to speak to the Uighur interpreter so 
        that he could translate to the guard commander. I 
        wanted to speak to the commander, asking him why I had 
        been placed here. The commander replied that it was not 
        his decision, but that of the Chinese delegation, who 
        instructed that I should be put in isolation. Following 
        this the interpreter and guard commander departed.''

    Mr. Chairman, to allow the Chinese in to interrogate the 
Uighurs is not like allowing the British, for example, to meet 
with their citizens at Guantanamo. England is an American ally. 
It is a democracy that promotes liberty and, most importantly, 
it does not have a long and well recorded history of torturing 
and oppressing its Muslim citizens.
    China has an abysmal human rights record generally and when 
it comes to the Uighurs specifically, everything from forced 
abortions to torture to execution for ideological dissent. The 
subcommittee has already heard testimony on these abuses.
    Moreover, it has been widely acknowledged that the Chinese 
have used the so-called war on terror as a pretext for abusing 
the Uighurs. Our own State Department has concluded that, and I 
quote:

          ``The Chinese Government used the international war 
        on terror as a justification for cracking down harshly 
        on suspected Uighur separatists expressing peaceful 
        political dissent on independent Muslim leaders. 
        Uighurs were executed and sentenced to long prison 
        terms during the years on charges of separatism.''

    In allowing the Chinese to interrogate the Uighurs then, 
Mr. Chairman, we by extension aided in the persecution of these 
men.
    To more fully understand the significance of the Chinese 
visit to Guantanamo it must be viewed in context. When the 
pieces of the puzzle are put together it appears that our 
country, as Mr. Fein suggested earlier, made a deal with China. 
As part of the deal we agreed to label the men as terrorists. 
In exchange, the Chinese agreed not to oppose our invasion of 
Iraq.
    In my written testimony I have included a detailed 
chronology. I would just like to pick a few points from this. 
(1) After 9/11, the Chinese Government announced their intent 
to encourage the international community to view these East 
Turkistan organizations as terrorist organizations.
    On December 6, 2001, the United States refused to label the 
East Turkistan Movement as a terrorist organization. Francis 
Taylor made the following statement: ``The U.S. has not 
designated or considers the East Turkistan organization as a 
terrorist organization.'' That was December 6, 2001.
    On August 26, 2002, after Deputy Secretary of State Richard 
Armitage met with senior Chinese officials in Beijing to 
discuss the invasion of Iraq, he immediately announced from 
Beijing that a group called the ``East Turkistan Islamic 
Movement'' will be placed on the State Department's list of 
terrorist organizations.
    The next month, Mr. Chairman, a Chinese delegation was 
allowed to visit our clients in Guantanamo and forcefully 
interrogate them over a period of 10 days. The next month the 
Chinese President at the time, President Zemin, traveled to 
Texas to meet with our own President, George W. Bush. Two 
months later, an FBI report confirmed that the Uighurs were 
being used as a pawn in order to gain support from the Chinese 
for our invasion of Iraq.
    This is a quote from an unnamed FBI agent in an FBI report 
dated December 2002:

        ``U.S. officials are considering whether to return the 
        Uighurs to the Chinese, possibly to gain support for 
        the anticipated U.S. action in the Middle East. The 
        Uighur detainees at Guantanamo are convinced that they 
        would be immediately executed if they are returned to 
        China.''

    And the last item I would like to point out from the 
chronology is a May 2008 FBI report that I referenced earlier. 
This is the report, from our perspective, that confirms the 
Chinese visit to Guantanamo. A Department of Justice report 
confirms that ``several Uighur detainees were subjected to 
sleep deprivation or disruption while being interrogated at 
Camp X-Ray by Chinese officials.''
    And as one agent noted, ``The treatment of the Uighur 
detainees was either carried out by the Chinese interrogators 
themselves or,'' Mr. Chairman, ``was carried out by U.S. 
military personnel at the behest of the Chinese 
interrogators.''
    So what does this all mean? I think it means that our 
country sacrificed a small, oppressed minority in order to win 
the support of the Communist Chinese Government for our 
invasion of Iraq. In doing so, America turned its back on the 
values and freedoms that serve as the bedrock of our republic. 
We should have been offering to help the Uighurs in their 
struggle against the oppression. Instead we sacrificed them to 
advance our own interests.
    I think we can do better. We have the strength and 
character as a nation to stand up to countries that persecute 
their citizens and smother liberty. We are strong enough to 
withstand the Chinese pressure. We are capable of doing the 
right thing.
    According to the Chinese, the lonely man who confronted a 
tank in Tiananmen Square 20 years ago is a terrorist. So is the 
Dalai Lama. So is Rebiya Kadeer and so is the old Uighur woman 
armed only with a cane--she needs to walk--who stood alone 
against the Chinese Army in Urumqi less than 2 weeks ago, and 
yet our own Government has yielded to this Chinese propaganda 
not just in 2002, but also, Mr. Chairman, in 2009.
    I am sad to say that many Members of this Congress embraced 
the lies when they lobbied against the release of the Uighurs, 
our clients and others, into the United States earlier this 
year. Four of these Uighurs, as we have mentioned, are free men 
in Bermuda today. They are peaceful and law abiding.
    But, as unimaginable as it is to say, 13 of their Uighur 
brothers, brave dissidents from the leading Communist power, 
long cleared by the American military, both the Bush and Obama 
Administrations and by several U.S. courts, these men remain 
prisoners of the propaganda machine that has beguiled two 
Presidents, the Congress and the American people.
    Mr. Chairman, thank you for this opportunity to speak with 
you and the members of the subcommittee, and thank you for your 
diligent efforts to uncover the truth behind the imprisonment 
of the Uighurs at Guantanamo.
    [The prepared statement of Mr. Pinney 
follows:]Jason Pinney.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Delahunt. Thank you, Mr. Pinney. Let me just note that 
the Obama Administration of course is designing a plan in terms 
of dealing with those who have been cleared for release, and I 
hope they have an opportunity to read the words of George 
Washington and to examine the transcripts of these hearings 
that we have held and offer to the remaining Uighurs an 
opportunity to resettle in the United States so that we can 
reclaim our moral authority despite what has occurred in the 
past.
    Mr. Fein. If I could interject, Mr. Chairman? You remember 
the Congress passed the Military Commissions Act of 2006, a 
quite disgraceful statute, but it was a statute.
    I would suggest that Congress may want to consider stealing 
a march on time on the Obama Administration. By statute you 
clearly have authority to dictate those Uighur detainees come 
to the United States of America. It could be one of the 
Congress' finest hours.
    You don't need to wait. You didn't wait on the Military 
Commissions Act. You don't need to wait now.
    Mr. Delahunt. Thank you, Mr. Fein.
    Mr. Parker, you are our cleanup hitter, so to speak.
    Mr. Parker. I only wish I knew what that meant.
    Mr. Delahunt. It is a term we use in Red Sox Nation. You 
probably have not heard that. Well, I am sure you have heard 
the term Red Sox Nation.
    Mr. Parker. Red Sox Nation I have. Having lived in New 
Haven, Connecticut, I have heard of this team they call Red 
Sox.

STATEMENT OF MR. TOM PARKER, POLICY DIRECTOR, COUNTER-TERRORISM 
          AND HUMAN RIGHTS, AMNESTY INTERNATIONAL USA

    Mr. Parker. Mr. Chairman, thank you very much for the 
opportunity to testify here today. It is an honor to address 
the subcommittee on such an important issue and to share my 
organization's thoughts on the plight of the Uighurs and the 
implications for an effective national security policy.
    I would like to address several points in my testimony: The 
nature of human rights conditions in Xinjiang Uighur Autonomous 
Region, the security situation there, and the interrogation of 
Uighur detainees at the Guantanamo Bay detention facility.
    Amnesty International views with sadness and great concern 
the recent ethnic violence in Xinjiang, which has been one of 
the worst outbreaks of violence in China in recent years. 
Violence has once again placed this region in the headlines, 
but the causes and human rights conditions that underlie these 
riots have been developing for decades, both from the 
fundamental conditions that exist in the region and the 
policies and programs and reactions of the central and local 
government in the XUAR.
    The recent violence is not an isolated event, but part of a 
wider story. In 1955, the People's Republic of China 
established the Xinjiang Uighur Autonomous Region in 
recognition of the Uighurs' predominance in the region, a 
status that according to the Chinese constitution entitles 
ethnic minorities to organs of self-government in order to 
exercise autonomy.
    According to the latest Chinese census, in 2000 there were 
more than 18 million people living in the Autonomous Region, of 
whom 47 percent are Uighurs, 40 percent Han Chinese and 12 
percent from other ethnic groups. The Han Chinese population 
has increased significantly from an estimated 6 percent in 1949 
due to central government policies that include providing 
financial incentives for Han Chinese to migrate to the region.
    This sustained influx of Han Chinese migrants into the 
region has contributed to the destruction of local customs and, 
together with employment discrimination, has fueled discontent 
and ethnic tension.
    On paper, Islam is one of the official religions of China 
and people are accorded special privileges because of their 
cultural background, but in reality the government has pursued 
a policy of undercutting the Uighurs' cultural, linguistic and 
religious life.
    According to one of our organization's reports, in 2009 the 
authorities still maintain a tight control of the mosques and 
religious clergy, intervening in the appointment of local 
imams, stationing police within and outside mosques and closely 
monitoring all religious activities.
    Government employees in the Autonomous Region, including 
teachers, police officers, state enterprise workers and civil 
servants, risk losing their jobs if they engage in religious 
activity.
    Chinese authorities have also put many obstacles in the way 
of Uighurs attempting to make the pilgrimage to Mecca, the 
Hajj, which is a requirement for all practicing Muslims. 
Children under the age of 18 are not allowed to enter mosques 
or receive any sort of religious education. Many young Uighurs 
are afraid that if they do enter a mosque that they will be 
expelled from school.
    A supposedly bilingual education system in fact actually 
makes Mandarin the sole language of instruction and is steadily 
undermining the foundations of Uighur culture.
    The post-Mao era in the 1980s liberalized policy throughout 
China, allowing citizens greater freedom, including some 
freedom of religion and expression, and strengthened legal 
protections. However, since the mid 1990s Uighurs have 
experienced a sharp reversal in this policy as authorities have 
embarked on a very aggressive campaign against what have been 
termed the three evils: Terrorism, separatism and religious 
extremism.
    As a result, increased numbers of Uighurs have been 
subjected to arbitrary arrests, unfair trials and torture, and 
their economic, social and cultural rights have been slowly 
eroded. This has worsened since 9/11 as the authorities have 
cast Uighur discontent within the framework of international 
terrorism. Most academics and other observers consider these 
claims to be unsubstantiated.
    In 2008, the authorities used a series of violent incidents 
allegedly carried out by Uighur separatist groups as a pretext 
for launching a sweeping crackdown population in the Xinjiang 
Autonomous Region. According to the official media, almost 
1,300 people were arrested in 2008 on state security charges 
that included terrorism, separatism and religious extremism and 
1,154 were formally charged and faced trials or administered 
punishments.
    On August 14 last year, Wang Lequan, the Communist Party 
Secretary of the Autonomous Region, announced a life and death 
struggle, his words, against Uighur separatism. Currently there 
are thousands of Uighur political prisoners imprisoned in China 
without charge or trial or after unfair trials. Torture is 
commonplace, and statements extracted through torture are used 
to convict Uighurs, including convicting them of the death 
penalty.
    Coercive methods reportedly used by the Chinese public 
security agents include physical beatings, prodding people with 
electric shock batons, the insertion of needles under 
fingernails and the use of stress positions.
    Shahir Ali is a young Uighur or was a young Uighur 
political activist who fled from China to Nepal in 2000. He was 
forcibly returned to China by the Nepalese authorities in 2002. 
He was tried and sentenced to death in 2003 for the crimes of 
separatism, organizing and leading a terrorist organization and 
the illegal manufacture, trading and possession of weapons and 
explosives.
    The evidence was presented in a secret case. None of this 
evidence has ever been made public, but there is no independent 
information to suggest that Ali was involved in terrorist 
activities of any nature.
    His circumstances are broadly similar, we would suggest, to 
those of the Uighurs currently held in Guantanamo, and one 
might reasonably expect that if they were returned to China 
they would share Ali's fate.
    Mr. Delahunt. Mr. Parker, are you aware of a statement by 
the former Speaker of the House of Representatives, Mr. 
Gingrich?
    Mr. Parker. You would have to elaborate further, sir.
    Mr. Delahunt. Well, recently, within the past several 
months, he made the statement that the Uighurs are not an 
American problem and they should be sent back to China.
    Would you care to make a comment on that particular 
statement?
    Mr. Parker. Well, if you send them back to China you could 
quite literally be signing their death warrant.
    Mr. Delahunt. In your opinion, and I would solicit comments 
from our other two panelists, if the United States should send 
them back to China, if they followed the wishes of Mr. 
Gingrich, would it violate domestic law and would it contradict 
our treaty obligations under the Convention Against Torture?
    Mr. Parker. With two distinguished legal colleagues on the 
panel, I won't talk about American law, but the principle of 
non-refoulement is an international custom or international 
principle which states you do not return people to face torture 
or inhumane or degrading treatment, so, yes, it would be a 
violation of international law.
    Mr. Fein. It would be a violation of United States law as 
well. It is one of the reasons why we haven't sent the Uighurs 
back to China.
    In fact, the State Department has publicly stated that they 
fear that they would be tortured or killed, so that is the 
official position of the United States Government as well.
    Mr. Delahunt. Then I would obviously conclude that Mr. 
Gingrich was ignorant of the realities affecting the Uighurs 
and was unaware of the treaty obligations, as well as domestic 
law.
    You can continue to proceed, Mr. Parker.
    Mr. Parker. It is against this underlying set of conditions 
that we have to view the current situation for the Uighur 
detainees still at Guantanamo. No other group of prisoners was 
so clearly wrongly apprehended and detained, reportedly sold to 
United States forces for a bounty of $5,000 per person after 
they fled from the village that they were living in in 
Afghanistan.
    Soon after they were picked up in 2002, our own 
intelligence and security personnel concluded that they posed 
no threat to the United States. However, from the outset ill 
treatment was a predictable part of a detention regime operated 
away from independent judicial oversight, and the Uighur 
detainees were not spared abuse.
    In May 2004, Amnesty International broke the story of the 
access of Chinese Government officials to these detainees in 
Guantanamo in 2002 and that American military personnel had 
assisted in the preparation of these individuals for interview 
by the Chinese authorities.
    In the years since then and in the absence of judicial 
oversight, the indefinite and isolating nature of the 
detentions at Guantanamo has remained cruel, inhumane and 
degrading. In February 2007, for example, Uighur detainee Ali 
Mohammed was being held in isolation in Camp Six, a super max 
prison one might call it, for at least 22 hours a day. He never 
sees direct sunlight and has no access to fresh air.
    During his 2 hours per day of recreational time, which on 
alternating days is in the middle of the night, Ali is placed 
in a cage where he can sometimes see other prisoners, but is 
punished if he tries to touch or greet them. He is compelled to 
complain to get clean clothes. He is denied privacy when he 
uses the toilet. Female guards can watch him using the toilet. 
His food and drinks are always cold. He eats every meal alone.
    Like all Guantanamo prisoners, he is not allowed any 
visitors other than occasional trips by counsel and the Red 
Cross. He is not allowed to make phone calls. As the Supreme 
Court recently affirmed, even convicted murderers cannot be 
made to endure conditions like this without first providing 
them with the benefit of due process.
    The physical and psychological well-being of detainees kept 
in such conditions has long been of concern. The treatment of 
the Uighurs has illustrated the pursuit of unaffected Executive 
power that has characterized the USA's conduct in the war on 
terror and led to systematic human rights violations, including 
arbitrary detention, torture and other ill treatment.
    Resolving their situation should mark not only a new start 
for these men, but also a full recognition by the United States 
of its obligation to ensure that anyone whose rights under 
international law have been violated in U.S. custody has access 
to effective remedy.
    Remedy for the Uighur detainees arbitrarily detained in 
violation of international human rights law is long overdue. 
The legal concept of remedy as enshrined in the International 
Covenant on Civil and Political Rights, of which the United 
States is both a signatory and historically a strong supporter, 
includes not only the restoration of liberty but also 
reparation.
    Four Uighur former Guantanamo inmates are now in Bermuda, 
four in Albania and one in Sweden. But consider for a moment 
what those men have lost. They have lost 7 years of their 
lives. Quite apart from the personal deprivation of liberty, 
that is also 7 years of lost earning potential, one-fifth of a 
working life. Their families too have been without their 
primary bread winner all of that time.
    Furthermore, what kind of future do they have to look 
forward to? They certainly haven't had the opportunity to learn 
or develop a trade while in detention, nor are they returning 
to a society they know well. Some may not even speak the local 
language.
    And however idyllic Bermuda may appear in press 
photographs, it is a world away from the central Asia steppe 
the Uighurs are used to. A refugee center in Albania certainly 
lacks any appeal whatsoever.
    Some released inmates may be grappling with medical or 
mental health problems. We know five inmates have committed 
suicide in the detention facility in Guantanamo since it 
opened.
    In March this year, the Department of Defense has reported 
that 34 inmates were on hunger strike. Such figures give some 
insight into the harrowing nature of the detainees' 
experiences, yet no provision has been made to support their 
rehabilitation.
    A recent study of the post release lives of 62 former 
Guantanamo inmates compiled by Professors Eric Stover and 
Laurel Fletcher of UC-Berkeley found that two out of every 
three former detainees reported psychological problems 
resulting from their confinement. Only six of those 62 have 
been able to find permanent jobs. Some are actually indigent 
and destitute.
    Releasing inmates cleared for release such as the Uighurs 
is not in and of itself enough. We have a moral and legal 
obligation to aid the reintegration of former inmates back into 
society. These men have been convicted of no crime, and in our 
system that means they are innocent. No ifs. No buts.
    Innocent men wrongly held for 7 years have a right to 
compensation, yet we understand some detainees have even been 
asked by camp authorities at Guantanamo to sign a waiver that 
they will not seek redress as a condition extracted under 
duress for their release. How low have we sunk?
    The Obama Administration cannot simply shove cleared 
detainees out of the gates of Camp Delta and forget about them. 
The United States must take responsibility for rebuilding lives 
it has ruined. If simple decency is not reason enough, consider 
also that Guantanamo stigma means that former detainees with no 
other source of support have little choice but to turn to 
radical mosques and extremist networks for help.
    It is in our interest to help these individuals make a 
fresh start. Indeed, our very security may even depend on it. 
In the pursuit of any conflict there are always mistakes and 
always casualties, but it is incumbent on us to act honorably, 
to tell the truth and to freely acknowledge our mistakes.
    In the long, sorry saga of the detention facility at 
Guantanamo Bay, no cases are more deserving of our sympathy and 
our apologies than the Uighurs both for the length of their 
detention and the manner of their treatment. These men have 
never posed any genuine or meaningful threat to the United 
States of America.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Parker follows:]Tom 
Parker.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Delahunt. Thank you, Mr. Parker.
    I am sure you heard the remarks by my colleague, Mr. 
Rohrabacher, where he extended his apologies, his personal 
apologies, to the Uighurs, and I would hope, Mr. Pinney, that 
you would convey back to your clients that America is getting 
it right.
    Mr. Pinney. Of course, Mr. Chairman.
    Mr. Delahunt. I know Mr. Fein has another obligation, and I 
know you have been waiting a long time.
    I think it was you, Mr. Pinney, that made the distinction 
between allowing say British, United Kingdom or better yet 
Irish; Irish security agents in to conduct interviews as 
opposed to those nations that have an abysmal human rights 
record.
    Information has come to my attention that the security 
apparatus of Uzbekistan has been allowed to visit detainees 
from Uzbek, and the only way to describe the leader of 
Uzbekistan, Mr. Karimov, is that he is the thug of Tashkent and 
has massacred thousands of innocent people who were protesting 
against the repressive nature of his government.
    I think you said it very well. Where are we and isn't it 
time, and I do hope that this is the case, that the Obama 
Administration is doing a full reassessment of this I think 
horrific policy that results in human rights violators free and 
unfettered access to detainees. There is no gain. There is only 
disdain, if you will, for the U.S. that comes from this.
    But I guess I would pose a question to you. Has Amnesty or 
anybody reflected and thought about a policy that would meet 
the standards of the human rights community so that interviews 
done appropriately and done in a fashion that is reflective of 
our values could be conducted by agents of foreign governments?
    Mr. Parker. Well, our standard basically is we should be 
using the criminal justice system to detain people that we 
suspect of terrorism, and there are legal instruments that 
allow foreign countries to request access to people in 
detention.
    Lettre rogatoire, for example. As a law enforcement or a 
former law enforcement official myself, I have often applied to 
foreign governments for access to talk to both witnesses and 
detainees, and it is done through normal judicial mechanisms 
and that serves perfectly well.
    Mr. Fein. But because we do still have a President that 
says there is a category of persons who are not criminals but 
we will retain for some reason, for the Congress of the United 
States simply having a presumption of nonaccess by any foreign 
intelligence security service unless the President makes a 
waiver and certifies that that intelligence service satisfies 
certain human rights standards so that the burden of proof is 
on the President.
    The President has to disclose it and share it with 
Congress. At least it is a statement out of this Congress that 
the norm is no, you can't share it and no one will be out there 
who is outside the United States unless the President certifies 
that there is not going to be abuse basically.
    I come back to Congress has got to assert itself. It is not 
just the Obama Administration.
    Mr. Delahunt. You are really making us the first branch of 
government.
    Mr. Fein. It is the first branch. That is what I read about 
in the Constitution. It is the very first article, and that was 
authority under the necessary and proper clause. You can 
regulate any execution of any executive power whatsoever.
    Mr. Delahunt. Mr. Pinney?
    Mr. Pinney. Mr. Chairman, from the legal cases we have had, 
we have had the ability to work with the Administration in 
resettling one detainee to Saudi Arabia in 2006 and of course 
with the four men that went to Bermuda in 2009, and we were 
able to coordinate the logistics behind that in a way that was 
fair, open and approved by the court.
    Just to come back to a comment you said earlier, China has 
a terrible human rights record, but it is not just that they 
have a terrible human rights record. It is that they have a 
record that our Department of State has documented for years 
and years about these particular individuals.
    They have a record of abusing and oppressing and executing 
and torturing unfairly the Uighurs and we let those men in to 
talk to them in 2002, so it goes beyond really what could ever 
be considered a fair process.
    Mr. Parker. Could I add one thing as well? It is incumbent 
upon me as the Amnesty representative to point out it is not 
just a foreign problem. It is also how we treat individuals at 
Guantanamo Bay. It is not just foreigners coming in and doing 
this. American service personnel have been complicit in the 
mistreatment of detainees.
    I am not aware if the Angard of Shekinah has ever sent 
anybody to Cuba, whether there has ever been an Irish detainee 
in Cuba, but the British Government certainly has sent security 
service officers there, and there is currently a metropolitan 
police investigation into the activities of those officers not 
simply because of what they may have done themselves, but what 
they were associated with by working with American service 
personnel.
    So this is not an issue just about Chinese access. This is 
an issue about how we treat detainees in our power period.
    Mr. Delahunt. Gentlemen, thank you. It has been a most 
informative hearing. Your testimony was excellent. It has been 
a long day.
    I have a request. Well, let me make the request. There has 
I thought been an exceedingly inciteful opinion piece by David 
Keene, who I usually don't agree with, but it relates to this 
particular issue.
    If there is no objection, and hearing none, I am going to 
enter this into the record of the committee. It has a number of 
good things to say about Mr. Rohrabacher, and I hope I don't 
hurt his political career by saying that they are true in this 
particular case.
    But in any event, the opinion piece by Mr. Keene, who 
happens to be the chairman of the American Conservative Union, 
will be entered into the record.
    [The information referred to follows:]The 
Hill.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Delahunt. And I should note too that genuine 
conservatives are informing themselves about this particular 
issue and are speaking out and I think are reinforcing those 
conservative values that have traditionally been a worthy 
reflection of what America is about.
    I applaud them for doing that because there are some in the 
Minority party that see a political opportunity here, but those 
people, their behavior will be noted and the people like David 
Keene and Dana Rohrabacher and others that don't come to mind 
right now, they will be the ones who will speak to principle.
    In the end, history will respect them because I think we 
are making progress. I think we have a long road to go, but you 
have helped us along that road today.
    So, gentlemen, thank you. We are adjourned.
    [Whereupon, at 2:26 p.m., the subcommittee was adjourned.]
                                     

                                     
















                            A P P E N D I X

                              ----------                              


   Material Submitted for the Hearing Record Notice--updated 
                 "Allan" to "Alan" as per witness deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Minutes.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
